<html>
<title> - LEGISLATIVE HEARING ON H.R. 674, H.R. 1273, H.R. 1900, H.R. 1901, H.R. 2346, H.R. 2696, AND H.R. 2697</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
              LEGISLATIVE HEARING ON H.R. 674, H.R. 1273,
       H.R. 1900, H.R. 1901, H.R. 2346, H.R. 2696, AND H.R. 2697

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2007

                               __________

                           Serial No. 110-40

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
37-478 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado, Ranking
PHIL HARE, Illinois                  MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              GUS M. BILIRAKIS, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             July 31, 2007

                                                                   Page
Legislative Hearing on H.R. 674, H.R. 1273, H.R. 1900, H.R. 1901, 
  H.R. 2346, H.R. 2696, and H.R. 2697............................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    30
Hon. Doug Lamborn, Ranking Republican Member.....................    16
    Prepared statement of Congressman Lamborn....................    31
Hon. Shelley Berkley.............................................    14

                               WITNESSES

U.S. Department of Veterans Affairs, Bradley G. Mayes, Director, 
  Compensation and Pension Service, Veterans Benefits 
  Administration.................................................    21
    Prepared statement of Mr. Mayes..............................    40

                                 ______

American Legion, Alec S. Petkoff, Assistant Director, Veterans 
  Affairs and Rehabilitation Commission..........................    13
    Prepared statement of Mr. Petkoff............................    38
American Veterans (AMVETS), Raymond C. Kelley, Legislative 
  Director.......................................................    13
    Prepared statement of Mr. Kelley.............................    37
Fossella, Hon. Vito, a Representative in Congress from the State 
  of New York....................................................     4
    Prepared statement of Congressman Fossella...................    32
International Cemetery, Cremation and Funeral Association, Robert 
  M. Fells, External Chief Operating Officer and General Counsel.    12
    Prepared statement of Mr. Fells..............................    36
Paralyzed Veterans of America, Carl Blake, National Legislative 
  Director.......................................................     9
    Prepared statement of Mr. Blake..............................    33
Rahall II, Hon. Nick J., a Representative in Congress from the 
  State of West Virginia.........................................     3
    Prepared statement of Congressman Rahall.....................    31
Veterans of Foreign Wars of the Untied States, Eric A. Hilleman, 
  Deputy Director, National Legislative Service..................    10
    Prepared statement of Mr. Hilleman...........................    35

                       SUBMISSIONS FOR THE RECORD

Disabled American Veterans, Brian Lawrence, Assistant National 
  Legislative Director, statement................................    42
Gutierrez, Hon. Luis V., a Representative in Congress from the 
  State of Illinois, statement...................................    42

                   MATERIAL SUBMITTED FOR THE RECORD

Hon. James B. Peake, Secretary, U.S. Department of Veterans 
  Affairs, to Hon. Bob Filner, Chairman, Committee on Veterans' 
  Affairs, letter dated July 7, 2008, transmitting Administration 
  views on H.R. 156, H.R. 1273, H.R. 1900, and H.R. 1901.........    43


              LEGISLATIVE HEARING ON H.R. 674, H.R. 1273,
       H.R. 1900, H.R. 1901, H.R. 2346, H.R. 2696, AND H.R. 2697

                              ----------                              


                         TUESDAY, JULY 31, 2007

            U. S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 3:30 p.m., in 
Room 334, Cannon House Office Building, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.

    Present: Representatives Hall, Rodriguez, Hare, Berkley, 
and Lamborn.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. Okay. Sorry for the extra long delay. Welcome 
back. The Subcommittee on Disability Assistance and Memorial 
Affairs will come to order.
    Good afternoon. First would everybody please rise and join 
me in the Pledge of Allegiance. Flags are at either end of the 
room.
    [Pledge of Allegiance.]
    Mr. Hall. I would like to thank the witnesses for taking 
time to appear today and for their patience with our voting 
schedule and also for presenting testimony on these important 
measures, H.R. 674, H.R. 1273, H.R. 1900, H.R. 1901, H.R. 2346, 
H.R. 2696 and H.R. 2697, all of which we will be considering 
today.
    H.R. 674, introduced by Congressman Gutierrez which would 
repeal the sunset of the Advisory Committee on Minority 
Veterans (ACMV) slated to occur December 31, 2009, if there is 
no intervening congressional action.
    As I stated during our joint hearing with the Health 
Subcommittee, I am especially concerned about the pending 
expiration of this authorization. In light of the June 2007 
report from the U.S. Department of Veterans Affairs' (VA's) 
Health Services Research and Development Service entitled, 
``Racial and Ethnic Disparities in the VA Healthcare System: A 
Systematic Review,'' which found that racial disparities exist 
in all clinical areas and that the disparities in healthcare 
delivery are contributing to measurable differences in health 
outcomes, this Committee is definitely still necessary. It also 
found that the disparate treatment in the VA appears to affect 
African-American and Hispanic veterans more significantly.
    With minorities comprising 20 percent of all of our 
Nation's veterans, I, like Mr. Gutierrez, believe the Advisory 
Committee on Minority Veterans plays an essential and 
indispensable role for the VA and should be made into a 
permanent fixture.
    We will also receive testimony on three bills regarding 
veterans' memorial benefits, H.R. 1273, H.R. 2346, H.R. 2696 by 
Ms. Berkley, Mr. Fossella and Mr. Lamborn, our Ranking Member. 
Mr. Lamborn will be here sometime soon, we hope. He is 
currently in another hearing that hopefully will allow him to 
leave and come over here.
    In the meantime, the minority side is represented by 
Counsel, Kingston Smith. Mr. Lamborn and Ms. Berkley's bills, 
among other things, seek to increase the plot and headstone or 
marker allowance for veterans who choose to be laid to rest in 
State or private cemeteries. Mr. Fossella's bill, H.R. 2346, is 
intended to improve the process for determining where our 
National cemeteries are located. I know that because of 
changing migration patterns and simple geographic 
configurations, the current criteria of a 170,000 veteran 
population in a 75-mile radius is not always a workable 
paradigm. I am also aware that the VA is currently evaluating 
its memorial benefits plan, and I look forward to hearing 
testimony on its progress in this area before the April 2008 
targeted completion date.
    We will also hear from Mr. Rahall on two bills that he 
sponsored, which would expand the category of those veterans 
eligible to receive pensions for nonservice-connected-
disability death or service. H.R. 1900 would do so by providing 
this pension to veterans receiving expeditionary medals, and 
H.R. 1901 would do so by including those veterans who served in 
the Korean Peninsula, Lebanon, Panama and Grenada. I look 
forward to receiving testimony on these two important measures.
    Lastly, H.R. 2697, also sponsored by Mr. Lamborn would 
expand the eligibility for veterans' mortgage life insurance to 
include Members of the Armed Forces receiving specially 
adaptive housing. I know it is often difficult for these 
servicemembers to acquire commercial insurance policies. This 
bill would close that gap between the military and VA military 
benefits. This change is now more necessary than ever for our 
returning Operation Enduring Freedom/Operations Iraqi Freedom 
(OEF/OIF) veterans. I will allow Mr. Lamborn, our Ranking 
Member, to read his opening statement when he is able to join 
us.
    And if it is okay, we will go right ahead to our first 
panel, which has shrunk from three to two. Welcome, the 
Honorable Nick Rahall. Mr. Gutierrez apparently is not able to 
join us, and the Honorable Vito Fossella. Your written 
statements will be entered into the hearing record so feel free 
to deviate from them.
    [The prepared statement of Chairman Hall appears on p. 30.]
    Mr. Hall. Mr. Rahall, we will start with your testimony and 
you are recognized for 5 minutes.

    STATEMENTS OF THE HON. NICK RAHALL, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF WEST VIRGINIA; AND THE HON. VITO 
 FOSSELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
                              YORK

               STATEMENT OF THE HON. NICK RAHALL

    Mr. Rahall. Thank you very much, Chairman Hall and Ranking 
Member soon to be here, and my good friends and colleagues Mr. 
Rodriguez and Ms. Berkley. It is very nice to be with you 
today.
    I thank you and the Members of the Veterans' Affairs 
Committee for what you have done in recent months to honor our 
brave men and women in uniform.
    The Committee knows that for centuries, we have witnessed 
the personal courage and sacrifice made by millions of 
Americans who have served our country. They have done so 
proudly without hesitation to protect our freedoms and our way 
of life and to help ensure peace in various regions worldwide. 
These individuals represent the best of America and I believe 
it is imperative that we in the Congress do everything in our 
power to honor them when they return home from their service.
    Too often when these young men and women do return, as the 
Committee is very well aware, we do not always honor their 
bravery with the full measure of respect and gratitude that it 
deserves. I believe we should take this opportunity to help 
ensure that our veterans regardless of the timeframe of their 
service receive appropriate recognition and benefits. Under 
current law, veterans may only meet eligibility requirements to 
draw a full pension if they have served in combat during a 
declared period of war. While this method was sufficient for 
the majority of veterans who served in America's 20th century 
engagements, America's evolving role in the world has 
necessitated the expansion and adaptation of our veterans 
benefit programs, including those pertaining to pensions. I 
believe this Subcommittee would agree that the veterans who put 
their lives on the line and suffer losses during undeclared 
times of conflict are no less admirable or deserving of thanks 
than those who serve in declared conflicts.
    My first bill, H.R. 1900, would expand eligibility for 
pension benefits through the VA to veterans who have received 
the Armed Forces Expeditionary Medal. This medal was 
established in 1961 by John F. Kennedy to recognize the service 
of American veterans in light of the expanding involvement of 
the U.S. in conflicts outside the scope of a ``period of war.''
    This medal is still awarded today to those men and women 
who serve in hostile regions, but not all of these courageous 
veterans receive full benefits. My second bill, H.R. 1901, 
would provide the guarantees of a pension to veterans who 
served in Korea, Lebanon, Grenada, and Panama. The bill 
specifically extends benefits to the following: Veterans who 
served in Korea from February 1, 1955, through August 4, 1964, 
and from May 8, 1975, through 1990; veterans who served in 
Lebanon and Grenada from August 24, 1982, through July 31, 
1984; and finally veterans who served in Panama from December 
20, 1989, through January 31, 1990. This bill would benefit 
those qualifying veterans who facilitated the overthrow of 
General Noriega in Panama as well as those who served in the 
conflict in Lebanon in 1983 when Americans, as we all know, 
lost 241 Marines to a suicide attack on our barracks in Beirut.
    Though the soldiers and those who served during additional 
conflicts covered by this bill were clearly at risk, they are 
currently not eligible to receive veterans' pensions. 
Nonetheless, in these cases, danger was faced. I think we all 
would agree with that. Bravery was shown. I think we all would 
agree with that. And unfortunately American lives were lost.
    So Mr. Chairman, I believe these bills would closely align 
the sacrifices made by these men and women with the 
compensation they deserve. As President Reagan said in his 
remarks to the Nation on the conflict in Lebanon and Grenada, 
and I quote: ``They gave their lives in defense of our National 
security every bit as much as any man who ever died fighting in 
a war.''
    These sentiments apply to every man and woman who has stood 
in harm's way to protect our freedoms. It is time that we 
recognize that fact and extend pension benefits to those 
veterans who have exemplified the courage and bravery of 
service in our Armed Forces. Again, I thank you, Mr. Chairman. 
I thank the Members of the Subcommittee and I thank the full 
Committee, under Chairman Bob Filner's leadership for the 
excellent work each of you do for our Nation's veterans.
    [The prepared statement of Congressman Rahall appears on p. 
31.]
    Mr. Hall. Thank you, Mr. Rahall. Mr. Fossella, you are now 
recognized for 5 minutes and your statement is also entered 
into the record.

              STATEMENT OF THE HON. VITO FOSSELLA

    Mr. Fossella. Well, thank you, Mr. Chairman. And Mr. 
Rodriguez, Ms. Berkley, thank you for your attendance here. And 
rather than repeat, let me just echo what my colleague, Mr. 
Rahall, has said not only about this Committee but also the 
great sacrifice and service of our men and women in uniform. 
And let me talk specifically about the legislation I have 
introduced. For years, I joined the Staten Island veterans in a 
battle to establish a veterans cemetery in our borough. The 
closest veterans cemetery in the area is the Calverton National 
Cemetery in Long Island. But transportation demands have made 
it practically inaccessible for too many of the 28,000 veterans 
in my district. It can be a grueling 3- to 5-hour roundtrip 
commute, making traveling there terribly difficult, 
particularly for disabled and older veterans.
    There are three primary obstacles preventing the 
establishment of a veterans' cemetery on Staten Island. First, 
the New York State law passed in the eighties prohibits the 
State from funding a veterans cemetery. Currently, I, along 
with Staten Island's local representatives, are working on a 
legislative solution to fix that problem. Second, Staten Island 
lacks the necessary available acreage for a cemetery. As you 
might know, there is a minimum requirement of about 175 acres. 
And due to the land shortage, many local veterans have united 
around the idea of a mausoleum because it requires the least 
amount of land and is the most cost effective way to achieve 
their long-sought goal. Real estate prices are high, and real 
estate itself is limited.
    Third, the Department of Veterans Affairs would call the 
threshold of 170,000 veterans living within a 75-mile area to 
necessitate the establishment of a national veterans cemetery. 
Due to the fact that Calverton on Long Island falls within the 
75-mile radius and therefore is ineligible under current law. 
For an aging, often disabled veteran population, the 3- to 5-
hour commute to Long Island is unreasonable, and simply does 
not serve the veteran population nor their families on Staten 
Island.
    In addition, as I have mentioned, we have the 75-mile rule, 
175 acres as well. As I mentioned earlier, many local veterans 
have come to agree the idea of a mausoleum instead of an actual 
cemetery is acceptable and appropriate. I believe that the 
threshold requirements used by the VA are a blunt instrument 
when applied to determining cemetery eligibility. To refine the 
process, I offered H.R. 2346, a bill which would improve the 
process by adding additional variables for the VA to consider 
when siting a national cemetery. The bill would direct the 
Secretary of Veterans Affairs to establish a process for 
determining whether geographic areas are efficiently served by 
the veterans cemeteries located in the area. The process will 
take into account the following variables for each of the 
geographic areas: One, total number of veterans; two, the 
average distance residents must travel to reach the nearest 
national cemetery; three, the population density; four, the 
average amount of time it takes a resident to travel to the 
nearest national cemetery; and five, the availability of public 
transportation for purposes of traveling to the cemeteries.
    And finally, the average amount of fees charged to an 
individual travelling on the major roads leading to the 
national cemeteries.
    And this sort of encapsulates it all. As you might know, 
Mr. Chairman, being from New York, congestion and traffic is a 
problem getting from point A to point B. In addition, tolls and 
the Verrazano Bridge alone going on and off Staten Island right 
now round trip is $9, and is scheduled to rise to perhaps $10 
or $11 roundtrip.
    So there is significant costs and time constraints placed 
upon any veteran or family Member wanting to visit the 
cemetery.
    Finally, in the case of a geographic area in which 
sufficient land is not available for the establishment of a 
cemetery, we ask and allow the Secretary to consider 
establishing alternatives like a mausoleum. It is worth noting 
that the VA, as you mentioned, is currently conducting a study 
regarding its requirements for establishing a national veterans 
cemetery. A focus of the study is an examination of whether 
current thresholds are feasible and not overly simplistic in 
ensuring veteran access. The VA knows there is a problem, and I 
hope my legislation can help fix it.
    In closing, Staten Island has one of the highest veterans 
populations in the State, yet it remains underserved, I 
believe, by a veterans cemetery. It is my hope that if adopted, 
perhaps with your support, the legislation would provide for a 
place of remembrance for so many of my constituents who deserve 
such a site closer to home.
    Thank you very much for your time, to the Committee and 
you, Mr. Chairman.
    Mr. Hall. Thank you, Congressman.
    [The prepared statement of Congressman Fossella appears on 
p. 32.]
    Mr. Hall. If you have a minute to answer questions, both to 
Mr. Rahall and Mr. Fossella, what I will do, since I made an 
opening statement, is ask Mr. Rodriguez if he would like to go 
first.
    Mr. Rodriguez. Thank you very much.
    Chairman Rahall, let me ask you, do you know the number you 
anticipate you might be looking at that would fall under the 
category that you specify? Do you have a rough number.
    Mr. Rahall. The number of individuals serving in the war?
    Mr. Rodriguez. That would fall under that category.
    Mr. Rahall. I am currently requesting that information from 
each branch of the military, and the DoD, in an effort to 
gather the records for the amount of medals that had been 
awarded on the first bill, the expeditionary medal. I don't 
have the numbers yet on the second bill, the pension benefits. 
Wait just a second. Let me see. I might have those.
    Mr. Rodriguez. I have been informed by the staff, I think--
--
    Mr. Rahall. The same response, Mr. Rodriguez. We have the 
requests in to DoD and we don't have those numbers returned 
yet.
    Mr. Rodriguez. I think it is definitely a good idea and 
just wanted to see in terms of how many we were referring to.
    Congressman, on the cemeteries, let me also congratulate 
you for bringing that forward, because I know that right now 
the life expectancy--that doesn't sound too good for a 
cemetery--but the life expectancy of the existing cemeteries, 
even the ones we have now, are very low. By maybe creating 
additional ones, that might enhance their life expectancy.
    I wanted to look at it because I have a district that spans 
650 miles across west Texas and we don't have any cemeteries 
out there. There is no doubt that we don't have a population of 
175,000 people. There is a need for maybe some smaller 
cemeteries in conjunction where the counties can participate in 
helping in those areas.
    So I just want to congratulate you on bringing forth this 
effort here because there is no doubt that we need to look at 
different options versus just going into urban areas. Because 
basically, that is what this does, it just establishes 
cemeteries in urban areas despite the fact that I know you have 
an urban area that still allows options to look at different 
kinds of areas. I want to just thank you and congratulate you 
for that.
    Mr. Fossella. Thank you, Mr. Rodriguez. As I see it, there 
are some rigid rules that the VA has. I think what we all would 
like to get to is some degree of flexibility, whether it is in 
west Texas or in Staten Island, to recognize that there may be 
a veterans population that may be underserved.
    Mr. Rodriguez. For a cost. Later on, we have to be careful 
about setting specifics because a lot of people will say I 
qualify for one. We probably maybe need to look for some kind 
of process for determining some kind of assessment as to what 
is needed nationwide, so we get a feel as to what is more 
appropriate. Would that be okay to kind of look at a study that 
would look at the whole country as a whole?
    Mr. Fossella. I always believe that this should be an 
American model for determining and assessing the need. So I 
would be open to that as well.
    Mr. Rodriguez. Because I know that some of the local 
communities and counties would be willing to donate the 
property and those kinds of things to help in this process or 
in sharing the cost.
    Mr. Fossella. I would be happy to look at that.
    Mr. Rodriguez. Thank you, Mr. Chairman.
    Mr. Fossella. Thank you.
    Mr. Hall. Thank you, Mr. Rodriguez. And Ms. Berkley, would 
you like to ask some questions?
    Ms. Berkley. Yes. Thank you very much, Mr. Chairman. First, 
I want to thank the two of you very much for being here. I 
appreciate it very much and support all three pieces of 
legislation. Chairman Rahall, the fact that veterans from 
Korea, Lebanon, Grenada, Panama have not been recognized and 
are not eligible for the veterans pension benefits I think is 
absurd. I am delighted that you have brought this to our 
attention. I have a question for you though, because the State 
of Nevada has no national veterans cemetery. We have two State 
cemeteries: one in Reno, Nevada, which services the northern 
part of our State; one in Boulder City, which services southern 
Nevada, primarily the Las Vegas-Henderson area. But my question 
to you is, I thought I heard a snippet where you said that 
State law prohibits you from having State cemeteries as well?
    Mr. Fossella. Yes. New York is--I don't know if it is 
exclusive but it is somewhat unique in the fact that it 
actually had a law passed in the 1980s, to prohibit the 
establishment of State cemeteries, similar to what you have in 
Nevada. And we have spent the last several years of trying to 
undo that, within understanding that there may not be a 
straight out Federal cemetery, but at least we would have the 
option that you have in Nevada to establish a State cemetery 
for veterans, and we are working on a legislative fix to try to 
undo that to allow that option.
    Ms. Berkley. Well, I am very supportive of your legislation 
as well. I thank you both for coming in and spending time with 
us.
    Mr. Fossella. Thank you.
    Mr. Rahall. Thank you.
    Mr. Hall. Thank you, Ms. Berkley. In a minute, we will give 
you a chance, if you would like, to make a statement about your 
legislation, H.R. 1273.
    Ms. Berkley. I look forward to the opportunity.
    Mr. Hall. And so do we. But first, I just have a couple of 
brief questions, Mr. Rahall. I am curious about the genesis of 
your legislative efforts on H.R. 1900 and H.R. 1901, how they 
came to pass. You seem to have identified something that maybe 
many of us thought about or many of us might have missed.
    Mr. Rahall. Thank you, Mr. Chairman. The bill came about 
based on resolutions introduced by the American Legion. They 
actually had a resolution containing almost the exact same 
language. They certainly have recognized the oversight that 
exists in our efforts in providing both of these pieces of 
legislation. I might add as well that the Congressional Budget 
Office has not scored these bills, so I cannot give you an 
estimate yet on what it might cost. But again, that is not a 
major, nor I think, even a contributing factor to a decision on 
this legislation.
    Mr. Hall. I would agree with that. Since there hasn't been 
a declaration of war involved with many of our military 
activities since 1941. Since World War II, the last time we 
declared war, it has been some other instrument that has 
legislatively given the power to engage in military conflicts 
to the executive branch. Some might say we should go back to 
having a declaration of war so the entire country is involved 
in a full debate about the wisdom of the undertaking. But in 
the meanwhile, those who have served in all these conflicts 
that you cover in your legislation certainly deserve the same 
pension and the same benefits as veterans who served in prior 
wars.
    Congressman Fossella, I just wanted to ask you, I am 
curious about the New York State law. What do you think the 
intent was behind that law? And would it need to be repealed?
    Mr. Fossella. It would be great to get a State law passed 
similar to many States, whether it is Nevada or many across the 
country. My understanding, if my recollection is correct, it 
was more of a financial situation that the State of New York 
was in. If I am not mistaken, they were looking for every way 
possible to save money, for lack of a better phrase. And I 
think it was rooted in that. I think it was misguided. But in 
the meantime, it has taken more than 20 years to try to undo.
    Mr. Hall. And do you have a cost estimate or ballpark idea 
of the costs associated with either a cemetery or a mausoleum 
on Staten Island?
    Mr. Fossella. Well, it is a function, Mr. Chairman, of how 
big it would ultimately be. There are estimates of the 
mausoleum, anywhere from $20 million to $30 million to 
construct. But as you can imagine, to have vacant land for a 
cemetery is a little different than constructing a mausoleum up 
front, because that is more of a fixed cost, and therefore, I 
think it is an up front cost that not necessarily share it as 
just a cemetery would be. But there could be a partnership 
between the Federal and the State Government, whereby veterans 
would get compensation for being buried or interred at the 
mausoleum.
    So it is, in large part, how big is the house and how much 
is the house going to cost. It would be a function of what the 
local veterans organizations would deem to be sufficient. There 
are some sketches, some renderings. But roughly the numbers 
have been thrown around of $20 million or $30 million.
    Mr. Hall. Well, given the cost of real estate in any of the 
boroughs, Staten Island included, I would guess that you are 
probably at least competitive with, if not a lower final figure 
than a cemetery.
    Mr. Fossella. Well, it was very, very difficult. We had a 
task force created a few years ago to just search the island 
for land that would meet the Federal criteria. And with the 
exception of just the outlying areas of the Fresh Kills 
Landfill, there wasn't really anything which led to the 
veterans agreeing to a smaller parcel of property than the 
mausoleum, because I think if we did not have the mausoleum 
option, it would not be possible at all.
    Mr. Hall. Was there any opposition from veterans to the 
idea of a mausoleum?
    Mr. Fossella. No. I asked the veterans organizations, every 
one of them on Staten Island, represented wonderfully by the 
flags behind you I see for the most part, to join together and 
come up and let them drive the process, let them come to an 
agreement as to what they could live with and support. And it 
is as a result of that that we are pushing for not just this 
legislation, but specifically for a mausoleum.
    Mr. Hall. Thank you very much. Mr. Smith, do you have 
anything you would like to ask?
    Mr. Smith. Thank you, Mr. Chairman. Mr. Lamborn may have 
questions when he arrives or for the record.
    Mr. Hall. Very good. We will make sure they are entered in 
the record as far as these two witnesses are concerned.
    Congressman Rahall, Congressman Fossella, thank you again 
for your testimony, and you are now excused. I am sure you have 
a busy day yet ahead of you.
    Mr. Rahall. I am going back to my Committee where Mr. 
Lamborn is my Ranking Member right now.
    Mr. Fossella. Thank you.
    Mr. Hall. We hear Mr. Lamborn is on his way. So we are 
looking forward to seeing him.
    And now we will invite our second panel to the witness 
table. Mr. Carl Blake, National Legislative Director of 
Paralyzed Veterans of America; Mr. Eric Hilleman, Deputy 
Director of the National Legislative Service for the Veterans 
of Foreign Wars (VFW); Mr. Robert Fells, External Chief 
Operating Officer and General Counsel, International Cemetery 
and Cremation and Funeral Association; Mr. Raymond C. Kelley, 
Legislative Director for the American Veterans (AMVETS); and, 
Mr. Alec S. Petkoff, Assistant Director for Veterans Affairs 
and Rehabilitation Commission for the American Legion.
    Very good. Thank you all for staying with us and for your 
service, and your work and your patience.
    Mr. Blake, I will recognize you for 5 minutes. Your 
statement is entered in the record already.

   STATEMENTS OF CARL BLAKE, NATIONAL LEGISLATIVE DIRECTOR, 
    PARALYZED VETERANS OF AMERICA; ERIC A. HILLEMAN, DEPUTY 
  DIRECTOR, NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN 
  WARS OF THE UNITED STATES; ROBERT M. FELLS, EXTERNAL CHIEF 
OPERATING OFFICER AND GENERAL COUNSEL, INTERNATIONAL CEMETERY, 
     CREMATION AND FUNERAL ASSOCIATION; RAYMOND C. KELLEY, 
 LEGISLATIVE DIRECTOR, AMERICAN VETERANS (AMVETS); AND ALEC S. 
       PETKOFF, ASSISTANT DIRECTOR, VETERANS AFFAIRS AND 
           REHABILITATION COMMISSION, AMERICAN LEGION

                    STATEMENT OF CARL BLAKE

    Mr. Blake. Thank you, Mr. Chairman. Mr. Chairman, Members 
of the Subcommittee, on behalf of Paralyzed Veterans of 
America, I would like to thank you for the opportunity to be 
here today to testify on this important legislation. PVA 
generally supports all of the legislation being considered here 
today. With this in mind, I will limit my comments to only a 
couple of the bills on the agenda. H.R. 1900 will extend 
eligibility for pension benefits from the VA to veterans who 
receive an expeditionary medal during a period of military 
service other than a period of war. Likewise, H.R. 1901 will 
expend eligibility for pension benefits for veterans that 
served in the military during specified periods of military 
engagement.
    Expeditionary medals were awarded to a servicemember who 
participated in or was in support of one of the many operations 
of the U.S. military. Operations such as the invasion of 
Grenada in 1983 or the invasion of Panama in 1989 and many 
other special operations missions involved performance of 
duties that sometimes resulted in serious injury or loss of 
life.
    However, these operations were not a declared period of 
war. PVA supports the extension of benefits as defined in H.R. 
1900 and 1901. However, we would like to see these pension 
benefits extended to all active military that served during 
those periods, not just those individuals who served in the 
specific theater. The expeditionary medal was awarded to 
participants of a military operation but all military personnel 
may have been called upon to serve during these critical 
periods. We feel that all Members of the military serving 
during one of those periods should receive this pension if they 
meet the other qualifications of the benefit.
    PVA supports H.R. 2697. This legislation will complement 
legislation enacted during the 109th Congress. At that time the 
specially adapted housing grant was made available to 
servicemembers that were severely injured and still in the 
military so that they might begin taking steps to modify their 
homes even before being discharged. This legislation will allow 
servicemembers awaiting discharged to be eligible for mortgage 
life insurance. This provision is perfectly reasonable, as 
these men and women will be eligible for the benefit once they 
are a veteran anyway.
    Mr. Chairman and Members of the Subcommittee, I would like 
to, once again, thank you for the opportunity to testify, and I 
would be happy to answer any questions that you might have.
    Mr. Hall. Thank you very much, Mr. Blake.
    [The prepared statement of Mr. Blake appears on p. 33.]
    Mr. Hall. Now we will recognize Mr. Hilleman for 5 minutes.

                 STATEMENT OF ERIC A. HILLEMAN

    Mr. Hilleman. Thank you Chairman Hall, Congressman 
Rodriguez, Congresswoman Berkley. Thank you for today's 
hearing. And thank you for allowing the Veterans of Foreign 
Wars to present our views on the legislation pending today. 
Today it is my distinct pleasure to be accompanied by my 
father, Edward A. Hilleman. He taught me about service to 
community and to Nation. He is a Vietnam veteran, having served 
two tours as a Marine in Chu Lai. He received an honorable 
discharge in 1968 and returned to St. Louis, Missouri, joining 
our family business, a local funeral home. For nearly 40 years, 
he has been active in organizations such as the VFW and the 
American Legion. Through the family business, he has seen the 
rising cost of medical expenses and funerals take their toll on 
families.
    The benefit bills we are discussing today are a small cost 
toward the dignity and the memory of those who have sacrificed 
so much for our Nation. The VFW's views on the pending 
legislation are as follows: We support H.R. 674. This bill 
would repeal the sunset date for the Advisory Committee on 
Minority Veterans scheduled for December 31 of 2009. We support 
H.R. 1273, a restoration of plot allowance eligibility for 
veterans. This bill allows for $300 plot allowance for service-
connected disabled veterans or period war veterans. It grants 
the authority to the Secretary of Veterans Affairs to 
reimbursed deceased veterans families for nongovernment 
headstone marker, or in lieu of furnishing a Government marker. 
The VFW fully supports H.R. 1900, which extends the eligibility 
for veterans pension benefits to veterans who receive an 
expeditionary medal for a period of service other than a period 
of war. This law recognizes the change in use of the military 
in past and future conflicts, such as our Nation's involvement 
in Somalia from 1992 to 1993, Bosnia from 1992 to 2002, and 
current operations in the Horn of Africa.
    Under current law, these servicemembers and their families 
do not receive benefits that aid families through great periods 
of stress. The VFW supports H.R. 1901. This bill would extend 
the eligibility for pension benefits under the laws 
administered by the Secretary of Veterans Affairs to 
servicemembers that have risked life and limb in the Korean 
Peninsula, Lebanon and Grenada.
    The next bill, H.R. 2346, would direct the VA Secretary to 
establish a process for determining whether a geographic area 
is sufficiently served by the national cemeteries located in 
the geographic area. The work envisioned under, H.R. 2346, is 
accomplished by the National Cemetery Administration. Under 
Public Law 106-117 and Public Law 108-109, the NCA is required 
to report annually to Congress for establishment of additional 
cemeteries.
    A strategic plan is formulated, serving areas determined 
for appropriate cemeteries. The site selection process takes 
into account population centers and travel distances. It weighs 
the views of State and local veterans organizations and 
solicits other information and views that the Secretary 
considers are knowledgeable in these matters. We believe the 
current process sufficiently addresses the needs of veterans 
and their families. And as such, we view this legislation as 
duplicative of the efforts already in place by the National 
Cemetery Administration. We support H.R. 2696 Veterans' 
Dignified Burial Assistance Act of 2007. This bill increases 
the plot allowance to $400. As a coauthor of the Independent 
Budget (IB), we have strongly advocated increasing the burial 
plot allowance. We believe moving the amount closer to the IB 
recommendations of $745 would better serve veterans and their 
families to settle the affairs of a departed loved one.
    This legislation also includes a provision to abolish grant 
filing deadlines for veterans State cemeteries. The VFW has no 
position on this provision of this proposed legislation. The 
VFW supports H.R. 2697, legislation to expand eligibility for 
veterans mortgage life insurance to include Members of the 
armed services receiving specialty adapted housing assistance 
from VA.
    Mr. Chairman, this concludes my testimony. I look forward 
to any questions from the Subcommittee. Thank you.
    [The prepared statement of Mr. Hilleman appears on p. 35.]
    Mr. Hall. Thank you very much, Mr. Hilleman. Now the Chair 
will recognize Mr. Fells for 5 minutes. Once again, your 
statement is already in the record. So feel free to adapt it as 
you wish.

                  STATEMENT OF ROBERT M. FELLS

    Mr. Fells. Thank you very much, Chairman Hall, Members of 
the Subcommittee. We appreciate your invitation to have us here 
today. And I will just summarize. I am not going to read my 
printed statement, just make a few points. First of all, I 
really would like to commend and applaud Congresswoman Berkley 
on her leadership on H.R. 1273. I hate to become 
autobiographical, but this issue goes back with both my 
association, even myself for so many years. My association was 
actually instrumental back in 1973 when the National Cemeteries 
Act was being debated here in Congress in advocating the plot 
allowance be added because we knew there was were so many 
veterans and their families that already had burial spaces in 
private or religious cemeteries and that is where they wanted 
to be buried. We felt the choice should be up to the veterans 
if they wanted to opt for burial in national cemeteries or 
State veterans cemeteries, fine. But if they would prefer 
interment for personal or ethnic or religious reasons in 
private and religious cemeteries, they should also get a 
certain modicum of burial benefits as well.
    Later, as you know, the marker allowance was enacted for 
many people who preferred to purchase their own style and type 
of monument or marker other than the Government issued marker. 
They wouldn't really get anymore than anyone else because the 
allowance was based on the Government's wholesale cost of 
providing the VA markers, minus, in fact, an administrative 
fee. When it ended around 1990, it was only up to $88. But it 
helped. It helped a lot of people. In some cases, families 
already had a monument, but there were costs involved with the 
last dates and things like putting the deceased's name on the 
marker.
    So the marker allowance was also very helpful in 
facilitating these. I remember I was here in this room, in 
1990, when the hearing was held to curtail the plot allowance 
from the wartime veterans and to totally eliminate the marker 
allowance. And the individuals who sat up where you are sitting 
today said, we have to do this to help balance the Federal 
budget. I don't think anyone believed that then. And today it 
looks even more preposterous.
    So I will just conclude by saying that the thing to 
remember about H.R. 1273, all the bills here today are fine and 
ought to be acted upon favorably. But H.R. 1273 is unique in 
that it is not attempting to create or expand any new benefits. 
It is attempting to restore two benefits that never should have 
been taken away from veterans, particularly the veterans 
serving during times of war, never should have been taken away 
in the first place. So we would urge you to act very favorably 
on this. Thanks very much, and I will be happy to answer any 
questions.
    Mr. Hall. Thank you, Mr. Fells.
    [The prepared statement of Mr. Fells appears on p. 36.]
    Mr. Hall. The Chair will now recognize Mr. Kelley for 5 
minutes.

                 STATEMENT OF RAYMOND C. KELLEY

    Mr. Kelley. Mr. Chairman, Ranking Member, Members of the 
Subcommittee, thank you for providing AMVETS the opportunity to 
testify regarding pending legislation on minority veterans, 
memorial affairs and disability pension benefits. Over the past 
12 years, the Advisory Committee on Minority Veterans, with 
their unique insight, has provided timely accurate information 
and recommendations on potential barriers which are 
unintentionally in place, often causing minority veterans a 
lower quality of care. Although these barriers are not limited 
to minorities, the Advisory Committee's perspective provides an 
ability to identify the root of the problem and submit 
recommendations, which often develop into legislative proposals 
and inevitably helps all veterans. AMVETS wholly supports H.R. 
674's repeal of the sunset provision, maintaining the Advisory 
Committee on Minority Veterans.
    Mr. Chairman, it should be at the root of our Nation's 
conscience to honor those servicemembers who are willing to 
stand in harm's way at our Government's request. And the 
highest request we can pay is to honor the lives of our 
veterans after they have passed away. H.R. 1273, H.R. 2696 and 
H.R. 2346 promote this honor as well as offset the cost 
incurred by the families when the loved one passes on. AMVETS 
supports H.R. 1273 in restoring veterans plot allowance 
eligibility and headstone and marker allowance, but would 
encourage an amendment to include eligible veterans, not just 
veterans who served during wartime. AMVETS also supports an 
increase in burial assistance for $300 to $400. However, Mr. 
Chairman, the amount should be increased to $745. This 
increased amount would make current payments proportionally 
equal to the amount paid when the benefit was initially 
provided in 1973. AMVETS wholly supports H.R. 2346, as it 
assists VA in meeting the spirit of its goal of providing 85 
percent of veterans with burial options within 75 miles of 
their residences. AMVETS supports H.R. 1900 and H.R. 1901, as 
they update and clarify veterans who are eligible for pension 
benefits. In the same light, Mr. Chairman, AMVETS supports H.R. 
2697.
    However, due to Title 38's definition of veteran, 
administrative amendments may need to be enacted to include 
Members of the Armed Forces throughout Chapter 21, Title 38, to 
clarify servicemembers' eligibility for adaptive housing 
assistance, which this resolution will ensure. Mr. Chairman, 
this concludes my testimony.
    [The prepared statement of Mr. Kelley appears on p. 37.]
    Mr. Hall. Thank you, Mr. Kelley. I think we are all getting 
into the spirit of this week by keeping our testimony short. 
The green light stays on. And Mr. Petkoff, now you are 
recognized for 5 minutes. Your statement is in the written 
record.

                  STATEMENT OF ALEC S. PETKOFF

    Mr. Petkoff. Thank you, Mr. Chairman. Members of the 
Subcommittee, I appreciate the opportunity to be able to 
present the American Legion's views on this important pending 
legislation. The American Legion gives its full support to H.R. 
674, which will repeal the provision of the law requiring 
termination of the Advisory Committee on Minority Veterans, 
H.R. 1273, which restores plot allowance eligibility for 
veterans of any war and restores the headstone or marker 
allowance; and H.R. 2697, which addresses the expansion of the 
veterans mortgage life insurance.
    Whether it be transitioning out of the military or mourning 
a loved one, these bills impact veterans and their families at 
their most vulnerable moments. As long as there is the 
military, and as long as we have minority populations who are 
serving who have particular needs and sensitivities, we will 
always need the Advisory Committee on Minority Veterans. The 
plot allowance and headstone or marker allowance that was once 
for all veterans who served in the time of war should be 
restored. And if a servicemember has been awarded a grant for 
the VA benefit of especially adaptive housing, then it makes 
sense that they should also be eligible for the veterans 
mortgage life insurance.
    Now the American Legion does support the intent of H.R. 
1901, which extends eligibility for pension benefits to 
veterans who served during certain periods of time and 
specified locations. With the exception of Vietnam for the 
period of February 28, 1961, to August 4, 1964, wartime service 
was wartime service, and location was not an issue. The 
inclusion of location requirements seems overly restrictive and 
contrary to spirit and intent of nonservice connected pension 
benefits. Eligibility for benefits for all other periods 
require one day of active duty during a time of war with no 
location requirements. American Legion recommends removing 
location requirements from the bill. H.R. 2346, the American 
Legion supports the intent of that bill as well, which 
establishes process for determining whether geographic areas 
sufficiently served by the national cemeteries located in 
geographic area. While the American Legion fully supports the 
intent of the bill, it does have some concern about the 
addition of mausoleums to VA's national cemeteries. The main 
concerns being how would they conform to the national shrine 
commitment?
    And more importantly, is the idea what most veterans want 
and approve of. And the American Legion recommends that, of 
course, that continues to be further studied. And finally, H.R. 
2696, the Veterans' Dignified Burial Assistance Act of 2007, 
while some increase to the burial plot allowance is better than 
no increase, the suggested amounts offer only a small 
improvement to the current costs involved in paying for a 
funeral. The American Legion recommends that an increase that 
better reflects the current costs of a funeral be instated. The 
American Legion also supports the intent of section 2(b), which 
would repeal the time limitation for filing for that 
reimbursement. Thank you for allowing the American Legion to 
present its views on the testimony. And I would be happy to try 
to answer any questions the Committee may have.
    Mr. Hall. Thank you very much, Mr. Petkoff.
    [The prepared statement of Mr. Petkoff appears on p. 38.]
    Mr. Hall. Before we go to questions, I would like to turn 
to Representative Berkley and ask her if she would tell us 
about H.R. 1273.

           OPENING STATEMENT OF HON. SHELLEY BERKLEY

    Ms. Berkley. Thank you, Mr. Chairman. I appreciate that. I 
want to thank you and the Subcommittee for considering this 
plot and marker allowance restoration bill today. I also want 
to thank Bob Fells. This is not a mutual admiration society, 
but I appreciated your kind words. I appreciate the assistance 
you have given me in the last few years on this important 
legislation.
    As veterans from previous wars age and countless national 
heroes continue to serve our country, paying for the burial 
expenses of veterans is a serious concern for many families. We 
are in the position today to ease the burden on veterans' 
families during this most difficult time when they are burying 
a loved one. When I first ran for Congress back in 1998, when I 
started meeting with veterans' families just to learn about the 
issues, I was astounded when one family after another brought 
up the fact that the cost of burying their loved one, their 
veteran, was so difficult for them and such a terrible 
challenge. I vowed back then, 10 years ago in 1997, that I 
would try to do something about it. H.R. 1273 would expand the 
veterans plot allowance eligibility and reinstate the headstone 
marker allowance for use in private and religious cemeteries.
    In 1990, Congress curtailed the eligibility of wartime 
veterans to receive the plot allowance unless they were 
receiving VA compensation or pension benefits or died of 
service-connected injuries. Congress also eliminated the marker 
allowance which provided a cash reimbursement to veterans and 
their families who preferred to purchase their own marker or 
headstone for placement in a private cemetery. I can only 
imagine how you felt sitting here in 1990 and watching this 
unfold before your eyes.
    My bill would restore the $300 plot allowance for burial in 
a private or religious ceremony to a veteran of any war 
regardless of whether or not they were receiving veterans 
benefits. It would also provide a cost-based reimbursement for 
a headstone or marker to veterans and their families who prefer 
to purchase their own for placement in a private ceremony. As 
we have heard from our veterans service organizations (VSO) 
representatives, they support the bill. They also believe that 
the plot allowance should be increased beyond the $300 amount. 
Unfortunately, my timing wasn't perfect, but I have 
reintroduced legislation that does exactly this.
    While I know Mr. Lamborn's legislation calls for going from 
$300 to $400, I quite agree with you, that isn't where we need 
to be. We need to go back to the original intent of the 
legislation and keep up with the current costs. That $300 
should be $745. That is in a companion piece of legislation, 
and when we move toward the floor, I would like to incorporate 
the two pieces of legislation. This should not pass with the 
$300 allowance. It has got to be the $745.
    I introduced it this morning, as a matter of fact. So we 
can start moving that along as well. While I was in the 
cloakroom in the last series of votes, there was a flash on the 
television saying that we are now offering a $20,000 signing 
bonus for people that are willing to go to Iraq immediately.
    Certainly, if we can afford a $20,000 signing bonus to get 
people into the theater of war, for those that do not return 
from the theater of war alive, we can find $745 to take care of 
their burial needs. I urge all of my colleagues to not only 
support these pieces of legislation but to cosponsor these 
pieces of legislation. We have had a difficult time getting 
cosponsors. I think we ought to all be signing onto each 
other's bills. I want to thank all of you for being here. I 
appreciated your testimony and I yield back whatever time I 
have left.
    Mr. Hall. Thank you, Ms. Berkley. We are now happy to have 
been joined by Ranking Member Mr. Lamborn, who I will now 
recognize for his opening statement.

           OPENING STATEMENT OF THE HON. DOUG LAMBORN

    Mr. Lamborn. Thank you, Mr. Chairman. I am sorry I couldn't 
be here earlier because I was finishing another Committee 
hearing going on at the same time. In fact, I left that one 
early. But thank you for holding this hearing, and in my July 
10th letter to you, asking for this hearing, I asked also that 
we have a hearing on H.R. 3047, the ``Veterans Claims 
Processing Innovation Act of 2007,'' which is developing broad 
bipartisan support. This bill will bring VA's compensation and 
pension system into the 21st century.
    By increasing accountability and leveraging technology at 
the Veterans Benefits Administration, this bill would improve 
the accuracy and speed of benefits claims. And I recommend it 
to the attention of my colleagues. While I was disappointed 
that testimony on H.R. 3047 will not be heard today, I am 
encouraged by your promise, Mr. Chairman, to hold another 
hearing on this bill when Congress comes back in September. It 
would go without saying that I also anticipate the opportunity 
to review your own legislation to reduce the backlog once that 
is offered.
    This afternoon, we are in the middle of considering several 
pieces of legislation, all of which are of interest and 
potential value. Two of these bills bear my name, H.R. 2696 and 
H.R. 2697. A third, H.R. 2346, introduced by Mr. Fossella 
directly, addresses how we determine the location of a national 
cemetery and it is most timely. I look forward to working with 
Mr. Fossella on H.R. 2346. This is an important bill that will 
help provide veterans and their families with greater access to 
national cemeteries.
    And I believe it will help the VA create an even better and 
more accurate and beneficial selection process. The two bills I 
introduced support similar bills introduced by Senator Larry 
Craig of Idaho over in the Senate. H.R. 2696, the ``Veterans' 
Dignified Burial Assistance Act of 2007,'' which has been 
mentioned earlier will increase the burial and plot allowance 
for veterans' burial in a private cemetery from $300 to $400. 
That is an issue that we are looking at from a couple of 
different angles. The bill also repealed the current time 
limitation for State reimbursement for interment costs by VA. 
From time to time, a State locates the remains of veterans who 
were not interred. When States inter these veterans, they 
cannot be reimbursed by VA because of the time limit on 
reimbursement costs, and this bill would repeal that 
limitation. The last provision of the bill would authorize the 
VA Secretary to make additional grants to States for improving 
and expanding States' veterans cemeteries.
    States would have to submit an application to the Secretary 
and could receive up to $5 million. H.R. 2697 would extend 
eligibility for veterans mortgage life insurance or VMLI to 
Members of the Armed Forces. VMLI is a special type of life 
insurance that is only available to veterans who qualify for 
specially adapted housing grants. Many of our Nation's injured 
active-duty servicemembers will eventually qualify for VMLI and 
would benefit by having this eligibility. These are just three 
of the bills before us today. I look forward to the remainder 
of the testimony and our discussion of the other legislation 
before us today. My thanks to my colleagues and the witnesses 
for their testimony. And Mr. Chairman, I yield back.
    [The prepared statement of Congressman Lamborn appears on 
p. 31.]
    Mr. Hall. Thank you, Mr. Lamborn. Let me just ask a couple 
of quick questions myself. Mr. Blake, in your testimony, you 
stated that you would like to see pension benefits that would 
be provided under H.R. 1900 extended to all active military 
that served during the given periods, not just in the specific 
year. Do you know approximately how many veterans this would 
be?
    Mr. Blake. I certainly don't know. I think it was made 
evident when the question was posed to the previous panel that 
they didn't know either. I would be curious to know what the 
answer is, actually.
    Mr. Hall. Okay. We could probably find that out. You also 
stated, regarding H.R. 2346, that a projection of future needs 
could provide helpful information to the States as they decide 
whether or not to participate in the VA cemetery program. Could 
you elaborate more on the specifics of what should be entailed 
in these projections?
    Mr. Blake. I would prefer to do it in writing, if I could, 
sir. It is kind of a broad question, I think, with a lot of 
considerations.
    Mr. Hall. You are welcome to submit further thoughts along 
those lines in writing.
    Mr. Fells, I was curious about whether you would consider 
the $300 plot allowance sufficient or whether you would join 
Mr. Petkoff and Ms. Berkley in going for some higher number for 
this benefit.
    Mr. Fells. A higher number would be much more realistic. 
The $150 plot allowance back in 1973 had a lot more purchasing 
power than $300 does today. As a practical matter, we are 
willing to take baby steps and get the eligibility back to 
receive the benefits. But yes, to be practical, the higher 
amounts are much more helpful.
    Mr. Hall. From your viewpoint, is the cost for a mausoleum 
typically more or less, as far as maintenance, construction and 
other costs, than a cemetery?
    Mr. Fells. Good question, sir. With a mausoleum, you are 
maintaining a building. But you really have to add up all the 
factors. For example, with ground burial, typical ground 
burial, you have opening and closing costs, you have the 
addition of a vault or outer burial container, you have the 
addition of a monument or marker that needs to be maintained. 
Frequently they will sink or tilt especially in the first 6 
months or years. You don't have the costs I just mentioned with 
mausoleum entombment.
    So depending on what your costs are, it could be six of 
one, half dozen of another. Mausoleum entombment should not be 
looked at as necessarily cost savings, but it is not 
necessarily cost prohibitive either.
    Mr. Hall. Thank you. Mr. Kelley, in your testimony, you 
stated that AMVETS supports H.R. 1900 and H.R. 1901, but you 
have concerns on the need to update and clarify the eligibility 
of veterans. Could you further explain that concern? And what 
sorts of updates and clarifications do you think are needed?
    Mr. Kelley. Yes, sir, Mr. Chairman. The concern is in H.R. 
2697 with inclusion of Members of the Armed Forces. It includes 
in legislation in H.R. 2102 to include those personnel. But if 
you look in H.R. 2103, the Secretary has the authority to 
provide veterans plans for housing units and things along those 
lines. And as it reads, those would not be afforded to the 
Members of the military. So just administrative amendments to 
update those also.
    Mr. Hall. Thank you for that clarification. Mr. Petkoff, 
there seems to be a disconnect between the recommendations 
provided by ACMV in its reports and the implementation of these 
recommendations even when they are accepted by the VA Center 
for Minority Veterans. Given that 28 percent of all OEF/OIF 
veterans are minorities and given that the VA reports 
minorities comprised approximately 20 percent of all veterans, 
do you believe that the VA has adequate resources in place to 
address the needs of minority veterans?
    Mr. Petkoff. Well, I think that they are best advised by 
the Council. And that is why I think we need to keep that 
Council in place. They are the experts in that field, and I 
know they are working with VA and with VSOs to make sure that 
minority veterans are serviced and are reached. I think 
outreach is a critical factor that is involved. And I think 
they have over 300 centers to help reach minority veterans and 
actually to help faculty administration in the sensitivities of 
and nuances of reaching minority veterans. And so that needs to 
be maintained. And if necessarily increased, I think that would 
be up to the Council to decide.
    Mr. Hall. Okay. Thank you very much.
    Mr. Blake. Mr. Chairman, could I go back and address one of 
your questions? Having had a couple of minutes to think about 
it, your question about the State cemeteries, the PVA along 
with the organizations that have participated in the 
Independent Budget have always sort of supported the idea of 
the State cemeteries grants program and encourages States to 
get involved in this process to maybe alleviate some of the 
pressure on the National Cemetery Administration. However, some 
States have been hesitant to participate in those programs 
because there is still a lot of associated costs with the 
States when they develop these State cemeteries that they will 
have to manage.
    And I think through this legislation maybe there will be 
some way of demonstrating to the State that there is a need for 
a cemetery of some sort to serve this population of veterans, 
where in previous--in the past, States might not have been 
willing to participate because they didn't have maybe concrete 
enough or solid enough information to suggest that they should 
participate in the State cemetery grants program. I don't know 
if maybe that answers your question a little.
    Mr. Hall. Thank you. Yes, Mr. Blake. Thank you very much. 
We will turn to Ranking Member Lamborn now for questions.
    Mr. Lamborn. Thank you Mr. Chairman. I just have three. Mr. 
Hilleman from the VFW, you stated that the process in H.R. 
2346, which is a bill introduced by Mr. Fossella of New York, 
is duplicative. That bill would direct the VA to take some 
criteria into account when deciding what are located national 
cemetery that I am not sure the VA does take into account right 
now, including the average amount of fees charged to an 
individual traveling on the major roads leading to a national 
cemetery, the availability of public transportation for 
purposes of traveling to a national cemetery, the average 
amount of time it takes someone to go to the nearest other 
national cemetery, population density and average distance 
someone must travel to reach the nearest national cemetery. Are 
those things that the VA is taking into account right now? Or 
do they have a lot more limited set of criteria?
    Mr. Hilleman. To be honest, sir, I am not intimately 
familiar with the mechanisms the VA uses to judge cemeteries. I 
know they are based on population centers and distances from 
population centers. In regards to travel time from point A to 
point B, I know there is a concern in areas like New York where 
cemeteries in heavy traffic might be 2 to 3 hours or 4 to 5 
hours, when, in reality, the distance is quite near. We would 
be happy to work with your staff and the Committee staff and 
come to some sort of greater understanding of this bill 
together. The VFW is not opposed to working with the VA to 
reshape the mechanisms. But we want to make sure that it is not 
done haphazardly, sir.
    Mr. Lamborn. Okay. Thank you. Mr. Fells, a bill I have 
introduced, H.R. 2696, in section 2, repeals the limitation for 
State filing for reimbursement for interment costs. Have any of 
your Members been affected by the current law, which has a 1-
year time limitation for reimbursements for interment costs to 
the State?
    Mr. Fells. Sir, we represent the private cemeteries, the 
private and religious so they wouldn't be--as far as I know--
wouldn't be affected by that itself.
    Mr. Lamborn. Okay. Thank you. And on a different note, this 
isn't a bill before us today. But the respect for America's 
fallen heroes act that was passed last year, have you heard of 
demonstrations taking place where people are not following the 
requirements of that law and creating problems?
    Mr. Fells. There have been incidents. Yes, there are. And 
occasionally, our Members call on us for help. Our Members are 
very good at sharing. We have a listserve, for example. So one 
Member could say yes, that happened with a funeral of burial 
interment we had a couple months ago, let me tell you what we 
did, how we got together with the police, et cetera. So yes, 
these things are definitely happening.
    Mr. Lamborn. Do you think that that calls for a need for us 
to re-examine and maybe fine-tune that law?
    Mr. Fells. I would say so because, again, we represent the 
private sector. So it just isn't the national or the State 
veterans cemeteries that are affected by these protests, but 
all the cemeteries are affected by them. So yes, I would 
certainly urge that as well.
    Mr. Lamborn. And do you have any specific suggestions on 
how to do that?
    Mr. Fells. Not at this time. But if I could get back to 
you, I am sure we could propose some specifics.
    Mr. Lamborn. Thank you. I yield back, Mr. Chairman.
    Thank you. We would like to hear from you. Thank you. I 
yield back, Mr. Chairman.
    Ms. Berkley. Mr. Chairman.
    Mr. Hall. Yes, Ms. Berkley.
    Ms. Berkley. I would like to ask Mr. Lamborn, because that 
is a concern of mine as well. I was actively engaged in the 
passage of that legislation. Forgive me for not remembering if 
there is an enforcement mechanism. I know in Congress, we pass 
a law and then we pass it again and again and again, because 
people are not complying with it. But is there no compliance? 
What is the mechanism by which we get people to comply?
    Mr. Lamborn. Ms. Berkley, I would like to work with you on 
that. I was not here when Congress passed that.
    Ms. Berkley. I know.
    Mr. Lamborn. However, in Colorado, we did a similar version 
of a State law.
    Ms. Berkley. Because it would seem to me, if we have got a 
Federal law and people are in violation of it, they would get 
themselves arrested and they would go to jail or at least they 
would have a trial and would go to jail. So I am not sure if we 
just need to enforce the laws we have already got on the books 
or if we would need to pass further legislation. I do not know 
what the enforcing mechanism is in the legislation, but like 
with so many other things, the law exists; it is a matter of 
enforcing the law.
    Mr. Hall. I think we can take a look at the existing law 
and see if the enforcement mechanisms or penalties are 
sufficient.
    Mr. Blake. I think the thing about the respect for the 
fallen heroes' law, if I remember correctly, is that it 
principally applies to demonstrations, national cemeteries or 
State veteran cemeteries and not at all toward private 
cemeteries, which is another issue, and maybe that could be 
extended. I think the issue comes up again that Congressman 
Lamborn brought up as it relates to State law in some fashion 
too, but the reason that it does not apply in a lot of these 
cases is because that law was targeted at national and State 
veterans cemeteries, and that was it.
    Mr. Hall. Thank you for the clarification.
    Ms. Berkley. Thank you.
    Mr. Hall. If my colleagues on the other side would agree, I 
would recognize Mr. Hare now, since he joined us most recently, 
for questions or statements.
    Mr. Hare.   Thank you, Mr. Chairman. I will be brief. I 
only have one question, and I thank you for your indulgence, 
and my apologies to the panel for getting here late.
    Mr. Blake, just one question here. In the testimony that 
you gave, you expressed support for all of the bills that are 
currently here before us today. I would like to know from your 
perspective what changes you would recommend to any of these 
bills or to expand the scope of them or to ensure that they are 
implemented effectively.
    So in other words, from your perspective, what do you think 
of these? I know you support them, but what could we do to make 
it better? I will ask anybody on the panel for that matter.
    Mr. Blake. Well, I think generally they are all good 
legislations. I spoke toward the suggestions we had with 
regards to H.R. 1900 and H.R. 1901 in my oral statement.
    The other bill that I would look at goes back to the plot 
allowance issue as it relates to the recommendations of the 
Independent Budget. We certainly support, I believe--one of the 
gentleman on the panel here mentioned that $400 does not quite 
address what we have. But as to no increase versus some 
increase, we will take some increase first. We certainly would 
like to see it raised to a level that is included in the 
Independent Budget, which is more than $400. Anything from here 
is just enhancing what has already been proposed. I do not 
think there is anything that is bad to begin with.
    Mr. Hare.   Anybody else on the panel? Thank you, Mr. 
Chairman. I yield back.
    Mr. Hall. Mr. Rodriguez, no questions?
    Thank you very much, everybody, from the panel. I think we 
will, at this point, thank you for your testimony and for your 
service, and you are now excused.
    We are just hearing another vote being called. So let me 
just ask the panel here, do we want to have the third panel 
come and give their testimony?
    Mr. Lamborn. Mr. Chairman, if I could suggest, if there is 
only one witness for the last panel and if he took up to the 5 
minutes, we would still be able to get over and vote in time.
    Mr. Hall. That is correct, so that would be my thought as 
well.
    So we will ask our third panelist to join us, Mr. Bradley 
Mayes, Director of Compensation and Pension Service for the 
Veterans Benefits Administration, the U.S. Department of 
Veterans Affairs, accompanied by Ms. Lucretia McClenney, 
Director for the Center for Minority Veterans for the U.S. 
Department of Veterans Affairs, Mr. Richard Hipolit, Assistant 
General Counsel for the U.S. Department of Veterans Affairs, 
and Mr. Ronald E. Walters, Director of the Office of Finance 
and Planning for the National Cemetery Administration of the 
U.S. Department of Veterans Affairs. Thank you all for your 
patience.
    Your statement, Mr. Mayes, is in the record, and you are 
now recognized for 5 minutes.

   STATEMENT OF BRADLEY G. MAYES, DIRECTOR, COMPENSATION AND 
    PENSION SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
  DEPARTMENT OF VETERANS AFFAIRS, ACCOMPANIED BY MR. RICHARD 
HIPOLIT, ASSISTANT GENERAL COUNSEL, U.S. DEPARTMENT OF VETERANS 
AFFAIRS, MS. LUCRETIA McCLENNEY, DIRECTOR, CENTER FOR MINORITY 
 VETERANS, U.S. DEPARTMENT OF VETERANS AFFAIRS, AND MR. RONALD 
E. WALTERS, DIRECTOR, OFFICE OF FINANCE AND PLANNING, NATIONAL 
   CEMETERY ASSOCIATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Mayes. Thank you, Mr. Chairman, Ranking Member Lamborn, 
and Members of the Subcommittee. Thank you for having us here 
today.
    Mr. Chairman, we will address today only those bills for 
which the administration was able to coordinate its views in 
the time provided. We will address the remaining bills in a 
subsequent letter to the Subcommittee.
    [The Administration views for H.R. 1273, H.R. 1900, and 
H.R. 1901 appear on p. 43.]
    I will start with H.R. 674.
    This bill would repeal the current statutory requirement 
terminating the Advisory Committee on Minority Veterans as of 
December 31, 2009. The Department of Veterans Affairs supports 
this bill. The Committee is composed of veterans of all ranks 
and services appointed by the Secretary of Veterans Affairs. 
Members represent the five minority groups the Center for 
Minority Veterans is mandated to oversee. It advises the 
Secretary and Congress on VA's administration of benefits and 
provision of healthcare to minority veterans, and assesses the 
needs of minority veterans and reviews programs.
    Among other things, the Committee meets with senior 
officials to discuss services and programs available for 
minority veterans, and receives briefings from all of the 
administrations and other staff offices. Finally, on this bill, 
the cost associated with enactment would be minimal, 
approximately $80,000 per year.
    Regarding H.R. 2346, this bill would direct the Secretary 
of Veterans Affairs to develop a process for determining 
whether a geographic area is sufficiently served by the 
national cemeteries located in that geographic area. This bill 
would require that the process take into account the number of 
veterans in the area, the average distance a resident would 
have to travel, the population density, the amount of time it 
takes the resident to travel to the nearest cemetery, the 
availability of public transportation, and the average amount 
of any fees charged to an individual traveling on the major 
roads. If land sufficient to establish a national cemetery is 
not available to VA in a geographic area, then VA would be 
required under this bill to consider alternatives to 
establishing a cemetery, including establishing a mausoleum.
    Currently, the VA seeks to ensure that a national cemetery 
is located within a 75-mile radius of a deceased veteran's 
residence. One of the criteria for selecting the site of a new 
national cemetery is a veteran population of 170,000 that is 
not served by a national cemetery or by a State veteran 
cemetery.
    The six new national cemeteries authorized by the National 
Cemetery Expansion Act of 2003, as well as the six cemeteries 
authorized by the Veterans Millennium Healthcare and Benefits 
Act, which was enacted in 1999, satisfy these criteria. VA is 
in the process of evaluating the entire memorial benefits 
program, and we expect to complete that program evaluation by 
April 2008. We believe that it would be prudent to consider the 
results of that program evaluation before developing this new 
process that the bill would require.
    Therefore, we do oppose this bill at this moment because 
the measures in the bill have not had the benefit of the 
program evaluation that is underway. Because we cannot know the 
full extent of the processes involved in this bill, we are 
unable to estimate the costs that would result.
    Regarding H.R. 2696, the ``Veterans' Dignified Burial 
Assistance Act of 2007,'' this bill would increase from $300 to 
$400 the amount of reimbursement allowed for the cost of a 
burial plot or interment for a veteran who is eligible for 
burial in a national cemetery but who is buried in a State or 
in a private cemetery. This was last increased by public law 
107-103 in 2001.
    Section 2(b) of the bill would nullify the 2-year time 
limitation for States to file claims for the plot or interment 
allowance as applied to claims in connection with the interment 
of deceased veterans' unclaimed remains. section 2(b) would be 
retroactively effective as of October 1, 2006.
    For the same reason that we opposed H.R. 2346, we oppose 
this bill. That evaluation, the program evaluation that is 
underway, will assess the appropriateness of VA's current 
burial benefits based on data obtained and beneficiary needs. 
We believe that it would be premature to take a position on 
section 2 of the bill until that program evaluation is 
completed, and accordingly we defer taking a position on that.
    The enactment of section 2(a) would result in costs of $7.2 
million for the first year and $77 million over 10 years. The 
enactment of Section 2(b) would result in insignificant costs. 
Section 2(c) of the bill would authorize the VA to provide up 
to $5 million annually in grants to States or to tribal 
organizations for operating and maintaining--and that is key--
operating and maintaining State veterans cemeteries or veterans 
cemeteries on trust land owned by or held in trust for tribal 
organizations. The grant program is intended to complement the 
national cemetery system in providing a dignified burial place 
reasonably close to where veterans live. Through the grant 
program, States establish, expand, or improve cemeteries in 
areas where there are no plans to create an open national 
cemetery.
    Mr. Hall. Mr. Mayes, excuse me. I am very sorry to 
interrupt you, but the 5 minutes has expired.
    Mr. Mayes. Sure.
    [The prepared statement of Mr. Mayes appears on p. 40.]
    Mr. Hall. We are going to go across the street and take a 
quorum call vote, which our friends across the aisle have 
called, to make sure that we actually have a majority of 
Members present, and then we are going to come back and take 
questions after that. So if you would be patient with us, it is 
just one vote and one run across the street, and we will be 
back.
    Mr. Mayes. All right, Mr. Chairman.
    Mr. Hall. Thank you very much.
    The Subcommittee stands recessed for what, we hope, is 
about 10 minutes.
    [Recess]
    Mr. Hall. Thank you for staying with us, and I apologize 
for having your testimony interrupted. We are at this point 
going through, apparently, a series of delaying motions from 
the minority side and I just want to apologize to the witnesses 
and to the others here for these proceedings having to share in 
that delay, the calling of a quorum and motions to rise, 
apparently for no purpose but in taking up time.
    Nonetheless, I have questions, Mr. Mayes. I guess we will 
go first of all, to you and then to your colleagues.
    On H.R. 674, the Advisory Committee on Minority Veterans 
seems to serve as a very useful and efficient tool in helping 
the VA in its mission to address the needs of minority 
veterans. Do you think there needs to be any improvement to the 
Advisory Committee? If so, what improvements would you suggest?
    Mr. Mayes. Mr. Chairman, I think the Advisory Committee is 
working well. They have made a number of recommendations, in 
particular, about outreach and things like that. We take those 
recommendations and act upon them, where possible and where 
appropriate. So I would suggest that we support the legislation 
or the bill, as proposed. Continuing to have that Committee 
working the way it is seems to, I think, work for us.
    Mr. Hall. Thank you.
    The ACMV also recommended in its latest report that the VA 
should hire OEF/OIF minority veterans into the agency to ensure 
Departmental sensitivity to a new generation of minority 
veterans seeking services.
    What processes has the VA put into place to advance this 
recommendation? For instance, has the VA established processes 
at the Cabinet level to ensure that all applicable agencies are 
engaged?
    Mr. Mayes. I would like to provide that response Mr. 
Chairman.
    The only thing I can say for sure is that Admiral Cooper 
and Mike Walcoff from our Office of Field Operations have 
emphasized that we should be hiring OEF/OIF veterans and, of 
course, that would include minority OEF/OIF veterans. As far as 
having a formal process in place, I would like to respond to 
the Subcommittee in writing.
    Mr. Hall. We would appreciate that. Thank you.
    Mr. Mayes. Sure.
    [The following information was subsequently received from 
the VA.]

    VA launched an initiative to hire 10 Regional Veterans Employment 
Coordinators (RVEC) to assist the Department in providing employment 
opportunities to severely injured OIF/OEF veterans. Five of the 10 have 
been hired as of May 5, 2008. The RVECs will work with 160 local 
veterans employment coordinators to link veterans, especially severely 
injured veterans, to careers at the local level.
    VA's National Veterans Employment Program (NVEP) has been in 
existence since 2001. NVEP focuses on educating veterans and VA 
selecting officials on veterans' preference statutes and how to use/
apply statutes to gain access to career opportunities in VA. As a 
result of these efforts, VA has attained a workforce comprised of 31 
percent veterans. VA has showcased its NVEP to other Federal agencies 
and has assisted several agencies in their efforts to conduct outreach 
to veterans and employ veterans. The U.S. Office of Personnel 
Management tracks the achievement of all Federal agencies in hiring and 
promoting veterans.

    Mr. Hall. Maybe you could tell us in that same response how 
you identify minority veterans, what your outreach practices 
are to minority veterans and how they differ.
    How do they differ, if at all, from non-minority vets in 
terms of their needs or the type of outreach that you find most 
effective?
    You stated in your testimony that the enactment of H.R. 674 
would cost approximately $80,000 a year. Do you believe that is 
a sufficient level of funding for the ACMV?
    Mr. Mayes. I will turn the specific response over to my 
colleague.
    Mr. Hall. Ms. McClenney.
    Ms. McClenney. Yes, sir, Mr. Chairman.
    That covers the travel, honorarium and per diem of the 
Advisory Committee Members. That is adequate.
    Mr. Hall. Good. Thank you.
    If the funding were increased, what else would this 
Advisory Committee be able to accomplish; for instance, 
providing followup reports, informing of the success rate of 
the VA's implementation of those recommendations?
    Mr. Mayes. Well, Mr. Chairman, that is something I have not 
really thought through. Certainly increasing the funding would 
allow more frequent meetings, more interaction. I think that 
that is one thing that comes to mind.
    Mr. Hall. Thank you.
    Ms. McClenney. May I add?
    Mr. Hall. Yes, please, Ms. McClenney.
    Ms. McClenney. The law requires--the congressional mandates 
say that our Advisory Committee is required to meet at least 
twice annually. One of those meetings is a site visit, and they 
generally choose an area where there is a high concentration of 
minority veterans, and also depending on the needs. For 
example, we chose Los Angeles because there are 500,000 
minority veterans in the County of Los Angeles and 
approximately 1.5 million minority veterans in the State of 
California.
    The other visit is to Washington, to our headquarters here, 
where they actually receive briefings from the three 
administrations and other key staff offices and discuss their 
findings and recommendations. The VA has and does continue to 
listen to those recommendations, and I think it is making an 
active attempt to enact many of the recommendations the 
Committee has recommended.
    Mr. Hall. Thank you, Ms. McClenney.
    Are you aware, Mr. Mayes, or are any of your colleagues, of 
the current status of reform at the Chicago VA Regional Office 
(RO), for example, the number of additional employees that have 
been added? Can you apprise the Subcommittee of any lingering 
or ongoing problems? Is Illinois still ranked last in 
disability compensation benefits?
    Mr. Mayes. Mr. Chairman, I am not prepared to talk about 
Chicago. I do not have that information at hand.
    Mr. Hall. Well, if you could respond in writing, we would 
appreciate that.
    Mr. Mayes. Yes, sir, we can do that.
    Mr. Hall. Thank you.
    [The information from VA follows:]

    The Chicago RO currently has 182 full-time employees (FTE) on board 
in the Veterans Service Center (VSC) dedicated to the processing of 
service-connected compensation claims. This represents an increase of 
19 FTE since the beginning of March 2008. The additional staffing is 
expected to increase station productivity in the short term, with 
greater output in the future. In March 2007, the Chicago RO had a 
pending inventory of 14,273 disability claims. By March 2008, this 
number was reduced to 10,453, an improvement of 26.8 precent.
    In FY07, the Chicago RO brokered over 8,090 claims that were ready 
for a decision to other stations with the capacity to process this 
additional rating work. This brokering of work has allowed the RO to 
focus their attention on the oldest cases pending in their inventory. 
As a result of increased staffing and brokering, the Chicago RO has 
shown dramatic improvement in the average days pending (ADP) of a 
claim. Chicago's ADP at the end of FY07 was 175 days; at the end of 
March 2008 was 145.5 days. The Chicago RO has also shown significant 
improvement in ADP for Global War on Terror (GWOT) veterans. At the 
beginning of FY08, ADP for GWOT claims stood at 142.7 days, as of March 
2008, ADP for GWOT claims was 97.1 days.
    In addition to this increased productivity, the Chicago RO has also 
shown improvement in station quality. Authorization quality at the RO 
at the end of March 2007 stood at 83.3 precent and fiduciary quality 
was 79.7 percent. At the end of March 2008, authorization quality was 
92 percent and fiduciary quality increased to 84.8 percent.
    Overall, the Chicago RO has made considerable improvement. At the 
end of FY02, the station was ranked 52<SUP>nd</SUP> nationwide in 
disability compensation benefit payments. The RO has jumped six spots 
and was ranked 46<SUP>th</SUP> nationwide at the end of FY06. This 
improvement is significant as it reflects the average payments made to 
all veterans on their rolls, and not just recent decisions. Preliminary 
data for FY07 indicates the positive trend continues although VA is 
still in the process of validating this data.

    Mr. Hall. I know you are intending to supplement your 
statements today and to provide written testimony regarding 
H.R. 1273 after the hearing, but could you please explain what 
the current plot and marker headstone allowances are for 
veterans, who qualify, and how much that normally is?
    Mr. Mayes. Yes sir, I can talk about the plot allowance. 
The current plot allowance is $300 for a veteran who is buried 
at a non-national cemetery, and to be eligible for the plot 
allowance the veteran had to have either died because of a 
service-related disability, have been receiving VA pension or 
compensation at the time of death, or have been entitled to 
receive VA pension or comp, but decided not to reduce his or 
her retirement or disability pay, or the veteran died in a VA 
hospital. If the veteran died in a VA hospital, we would pay 
transportation.
    One other sort of exception is we would pay the plot for 
any veteran who is entitled to burial in a national cemetery if 
they are buried in a State cemetery.
    Mr. Hall. Thank you very much.
    If I could just quickly ask you about H.R. 1900 and H.R. 
1901. First of all I know, once again, you are planning to 
supplement testimony and provide written statements after the 
hearing; but could you explain the significance of the 
Expeditionary Medal to the VA, who qualifies and how it would 
impact benefits, for instance?
    Mr. Mayes. We are not prepared to talk about those 
particular bills. The Expeditionary Medal, however, does 
signify service. For example, in claims related to service in 
Vietnam, as an example, if a veteran had a Vietnam 
Expeditionary Medal, that would denote that they had service in 
Vietnam, and that is significant in claims for disabilities 
related to exposure to Agent Orange, as an example. So that is 
how we would use that information that is typically on the DD-
214.
    With respect to the specific bills, we just are in the 
process of still formulating our views and costs on those.
    Mr. Hall. We would appreciate getting that opinion in 
writing as soon as we can.
    Mr. Mayes. Yes, sir.
    [The Administration views for H.R. 1900, and H.R. 1901 
appear on p. 43.]
    Mr. Hall. I wanted to ask you, regarding H.R. 2346, you 
stated that the VA is currently evaluating the Memorial 
Benefits Program with hopes for completion by April of 2008.
    Can you give us any kind of update on where you are in that 
process? What is the definitive goal of the evaluation?
    Mr. Mayes. I will turn that over to my colleague Ron 
Walters from the National Cemetery Administration. He can give 
you a better feel.
    Mr. WALTERS. I would be happy to, Mr. Chairman.
    The study was brought about because periodic reviews of our 
programs are required by the Government Performance and Results 
Act of 1993, and it is part of good management practice. We are 
currently working with an independent contractor to conduct an 
evaluation of the full array of burial benefits offered by the 
VA. We awarded that contract in December of 2006, and the 
contractor is currently developing survey protocols, focus 
group activities and mapping requirements. The contractor is 
also examining the extent of repair and maintenance that is 
required at our cemeteries.
    As I mentioned, the study will address the full range of VA 
burial benefits and activities.
    I might also add that in developing the statement of work 
for the evaluation, the VA consulted with major stakeholders 
such as Members of veterans service organizations, as well as 
staff of the House and Senate Veterans' Affairs Committees--at 
a time that predates the arrival of current staff--regarding 
their perceptions of the challenges facing VA burial benefits 
in the future.
    The research framework that was adopted by the contractor, 
which we have seen, reflects stakeholder input and addresses 
access variables that are listed in H.R. 2346. We expect to 
have the final report from the contractor in the spring of 
2008, and we will brief Congress and other stakeholders at that 
time about findings and recommendations. We would be happy, of 
course, to work with the Subcommittee to provide any 
information that you might need in the interim.
    Mr. Hall. Thank you.
    Mr. Mayes. I would just add also that when I was preparing 
for this hearing today and went back and looked at the 
legislative history on many of the programs we offer to 
commemorate veterans service, you know anything that we do, if 
it is going to be a change, absolutely has to be done with your 
assistance. So we would be working with you, as we have, when I 
looked back through the legislative history, all the way back, 
really, before even 1973, but certainly since.
    Mr. Hall. Thank you. I appreciate that and we look forward 
to working with you also.
    I know regarding H.R. 1901 that you are planning to 
supplement testimony with written testimony later, but could 
you venture an opinion as to the idea of expanding pension 
benefits to veterans who served during the named conflicts that 
were not declared wars?
    Mr. Mayes. Mr. Chairman, I have to reserve my comment at 
this point in time since we still are formulating the views.
    Mr. Hall. Okay. All right. I understand.
    Going back to H.R. 674 for a moment, do you think the 
authorization for the Advisory Committee for Minority Veterans 
should be allowed to sunset or, if it did, what the VA would do 
to replace this entity?
    Mr. Mayes. Well, sir, we support the bill because we do not 
want it to sunset. And if it were to sunset, I believe that the 
Department of Veterans Affairs would continue to engage 
minority veterans. I do not know what that engagement would 
look like or how it would work, but we feel there is a benefit 
in working with the Advisory Committee. So in some form or 
fashion, we would be working with minority veterans.
    Mr. Hall. Thank you. I suspect that the Committee will be 
continued and not sunsetted, but I was just curious what your 
own opinion was on that.
    Lastly, I wanted to ask you, during the last visit, in 2006 
to the Los Angeles VA facilities, the Advisory Committee 
observed that the staff diversity was not representative of the 
minority veteran population, especially with regard to higher 
pay grades and for African Americans, Hispanics, and American 
Indians. The ACMV noted that this appears to be a systemic 
problem throughout the VA.
    Could you advise us as to what the VA is doing to ensure 
staff diversity for these veterans?
    Mr. Mayes. Well, having been a regional office director 
before taking this position, I know that in my individual 
performance plan, I was required to ensure that there were 
hiring practices that promoted diversity. And, in fact, I 
reported it each year in my self-assessment. We tried to hire 
minorities. We looked at the statistical metropolitan area. I 
was in Cleveland, and our hiring practices mirrored the 
community in Cleveland. I can speak to what we were doing in 
the field at a regional office prior to my taking this 
position, sir.
    Mr. Hall. Thank you. That hopefully is the approach that 
most regional directors are taking.
    Once again, regarding State cemeteries, how would H.R. 2696 
change the way that the grant funding is provided for 
operational and maintenance costs?
    Mr. Mayes. You are talking about the provision to allow 
States to use grant funds for operation and maintenance costs. 
Right now, they do not. We get the cemeteries set up. We 
provide grants for the establishment of the cemetery, but the 
States are responsible for operation and maintenance costs. 
This would blur that line because it would allow grant funds to 
be used for those operation and maintenance costs, and it is 
not clear to us how that would occur in future outyears.
    Would there be a dependency set up between a State cemetery 
and Federal funding that might not be able to be perpetuated 
into the future? There is some concern about this.
    The other thing is that money could be used to fund 
additional cemeteries, and it certainly could be used to expand 
the plot program, of which the intent originally was to address 
the shortage of national cemeteries when the benefit was 
created. Those are some concerns that we would have.
    Mr. Hall. I thank you very much. I am looking forward to 
the written responses to the other questions.
    Would the minority counsel like to ask questions?
    Mr. SMITH. Thank you, Mr. Chairman.
    All of our questions have been covered, and we have no 
further questions.
    Mr. Hall. Thank you very much, sir.
    We would like to thank you all for being here.
    Mr. Mayes, Mr. Hipolit, Mr. Walters, and Ms. McClenney, 
thank you for your patience. I look forward to your 
correspondence and to seeing you again in the future.
    The meeting stands adjourned.
    [Whereupon, at 5:25 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Prepared Statement of the Hon. John Hall, Chairman, Subcommittee on 
               Disability Assistance and Memorial Affairs
    Good Morning,
    I would ask everyone to rise for the Pledge of Allegiance--flags 
are located in the front and rear of the room.
    I would like to thank the witnesses for taking the time to appear 
today to present testimony on these important measures pending before 
the Committee.
    Today we will examine seven bills covering a broad spectrum of this 
Subcommittee's jurisdiction.
    The first is H.R. 674, introduced by Congressman Gutierrez, which 
would repeal the sunset of the Advisory Committee on Minority Veterans, 
slated to occur December 31, 2009 without Congressional action. As I 
stated during the Joint DAMA/Health Subcommittee hearing, I am 
especially concerned about the pending expiration of this authorization 
in light of a June 2007 report from the VA Health Services Research & 
Development Service (HSR&D), entitled Racial and Ethnic Disparities in 
the VA Healthcare System: A Systematic Review.
    This report found that racial disparities exist in all clinical 
arenas and that the disparities in healthcare delivery are contributing 
to measurable differences in health outcomes. It also found that the 
disparate treatment in the VA appears to affect African-American and 
Hispanic veterans more significantly. With minorities comprising 20 
percent of all of our Nation's veterans, like Mr. Gutierrez, I believe 
the Advisory Committee on Minority Veterans plays an essential and 
indispensable role for the VA and should be made a permanent fixture.
    We will also receive testimony on three bills regarding veterans' 
memorial benefits, H.R. 1273, H.R. 2346, H.R. 2696, offered by Ms. 
Berkley, Mr. Fossella and Mr. Lamborn, the Ranking Member, 
respectively. Ms. Berkley's and Mr. Lamborn's bills, among other 
things, seek to increase the plot and headstone or marker allowances 
for our veterans who choose to be laid to rest in state or private 
cemeteries.
    Mr. Fossella's bill, H.R. 2346, is intended to improve the process 
for determining where our National cemeteries are located. I know that 
because of changing migration patterns and just simple geographic 
configurations, the current criteria of a 170,000 veteran population in 
a 75-mile radius, is not always a workable paradigm. I also am aware 
that the VA is currently evaluating its memorial benefits plan and I 
look forward to hearing testimony on its progress in this area--before 
the April 2008 target completion date.
    We will also hear from Mr. Rahall on two bills that would expand 
the categories of those veterans eligible to receive pensions for non-
service-connected disability death or service. H.R. 1900 would do so by 
providing this pension to veterans receiving expeditionary medals and 
H.R. 1901 would do so by including those veterans who served in the 
Korean peninsula, Lebanon, Panama and Grenada. I look forward to 
receiving testimony on these two important measures.
    Lastly, H.R. 2697, also sponsored by Mr. Lamborn, would expand the 
eligibility for veterans' mortgage life insurance (VMLI) to include 
Members of the Armed Forces receiving specially adaptive housing. I 
know it is often difficult for these servicemembers to acquire 
commercial insurance policies and this bill would close that gap 
between the military and VA benefits. This change is likely more 
necessary than ever for our returning OIF/OEF veterans.
    Thank you.
                                 <F-dash>
Prepared Statement of the Hon. Doug Lamborn, Ranking Republican Member, 
       Subcommittee on Disability Assistance and Memorial Affairs
    Mr. Chairman, Thank you for holding this hearing in response to my 
July 10 letter to you. In that letter I asked that we also hold a 
legislative hearing on H.R. 3047, the Veterans Claims Processing 
Innovation Act of 2007, which is developing broad bipartisan support.
    H.R. 3047 will bring VA's compensation and pension system into the 
21st century. By increasing accountability and leveraging technology at 
the Veterans Benefits Administration, this bill would improve the 
accuracy and speed of benefits claims; and I commend it to the 
attention of my colleagues.
    While I was disappointed that testimony on H.R. 3047 would not be 
heard today, I am heartened by your promise to hold another hearing on 
H.R. 3047 when Congress returns in September.
    Of course, Mr. Chairman, I would look forward to you joining the 
fifteen or more Members, from both sides of the aisle, already 
cosponsoring H.R. 3047.
    It should go without saying that I anticipate the opportunity to 
review your own legislation to reduce the backlog, once it is offered.
    This afternoon, we are considering several pieces of legislation, 
all of which are of interest and potential value.
    Two of these bills bear my name, H.R. 2696 and H.R. 2697. A third, 
H.R. 2346, introduced by Mr. Fossella, directly addresses how we 
determine the location of a national cemetery and is most timely.
    I look forward to working with Mr. Fossella on H.R. 2346. This is 
an important bill that will help provide veterans and their families 
with greater access to national cemeteries, and I believe it will help 
VA create an accurate and beneficial selection process.
    The two bills I introduced support similar bills introduced by 
Senator Craig.
    H.R. 2696, the Veterans Dignified Burial Assistance Act of 2007, 
has provisions that improve the VA burial benefit and state veterans 
cemeteries. The bill would increase the burial and plot allowance for a 
veteran's burial in a private cemetery from $300 to $400.
    The bill would also repeal the current time limitation for state 
reimbursement for interment costs by VA. From time to time, a state 
locates the remains of veterans who were not interred. When states 
inter these veterans, they cannot be reimbursed by VA because of the 
time limit on reimbursement costs.
    My legislation would repeal this limitation.
    The last provision of the bill would authorize the VA secretary to 
make additional grants to states for improving and expanding state 
veteran cemeteries. States would have to submit an application to the 
Secretary, and could receive up to $5,000,000.
    H.R. 2697 would extend eligibility for Veterans Mortgage Life 
Insurance (V-M-L-I) to Members of the armed forces.
    VMLI is a special type of life insurance that is only available to 
veterans who qualify for specially adapted housing grants. Many of our 
Nation's injured active duty servicemembers will eventually qualify for 
VMLI and would benefit by having this eligibility.
    These are just three of the bills before us today; I look forward 
to the testimony and our discussion of the other legislation before us 
today.
    My thanks to my colleagues and the witnesses for their testimony 
and I yield back.

                                 <F-dash>
           Prepared Statement of the Hon. Nick J. Rahall II,
      a Representative in Congress from the State of West Virginia
    Chairman Hall, Ranking Member Lamborn and Members of the 
Subcommittee, I thank you for the work you have done in recent months 
to honor our brave men and women in uniform. I also thank you for your 
courtesy in allowing me to testify before the Subcommittee today on two 
bills I have offered that would extend the benefits offered to our 
Nation's veterans.
    Mr. Chairman, for centuries, we have witnessed the personal courage 
and sacrifice made by millions of Americans who have served our 
country. They have done so proudly and without hesitation, to protect 
our freedoms and our way of life, and to help ensure peace in various 
regions worldwide. These individuals represent the best of America, and 
I believe it is imperative that the U.S. Congress do everything in its 
power to honor them when they return home from service.
    Too often, when these young men and women return, we do not always 
honor their bravery with the full measure of respect and gratitude that 
it deserves. I believe we should take this opportunity to help ensure 
that our veterans, regardless of the timeframe of their service, 
receive appropriate recognition and benefits.
    Under current law, veterans may only meet eligibility requirements 
to draw a full pension if they have served in combat during a declared 
period of war. While this method was sufficient for the majority of 
veterans who served in America's 20th century engagements, America's 
evolving role in conflicts abroad has necessitated the expansion and 
adaptation of our veterans benefits programs, including those 
pertaining to pensions.
    I believe this Subcommittee would agree that the veterans who put 
their lives on the line and suffer losses during undeclared times of 
conflict are no less admirable or deserving of thanks than are those 
who serve in declared conflicts.
    My first bill, H.R. 1900, would extend eligibility for pension 
benefits through the Department of Veterans Affairs to veterans who 
have received the Armed Forces Expeditionary Medal. This medal was 
established in 1961 by President John F. Kennedy to recognize the 
service of American veterans in light of the United States' expanding 
involvement in conflicts outside the scope of a ``period of war.'' This 
medal is still awarded today to those men and women who have served in 
hostile regions, but not all of these courageous veterans receive full 
benefits.
    My second bill, H.R. 1901, would provide the guarantee of a pension 
to veterans who served in Korea, Lebanon, Grenada, and Panama. The bill 
specifically extends benefits to the following:

    <bullet>  Veterans who served in Korea from February 1, 1955, 
through August 4, 1964, and from May 8, 1975, through 1990.
    <bullet>  Veterans who served in Lebanon and Grenada from August 
24, 1982 through July 31, 1984.
    <bullet>  Veterans who served in Panama from December 20, 1989, 
through January 31, 1990.

    This bill would benefit 27,000 veterans who facilitated the 
overthrow of General Manuel Noriega in Panama, as well those who served 
during the conflict in Lebanon, in 1983, where America lost 241 Marines 
to a suicide attack on the U.S. Marine barracks in Beirut. Though these 
soldiers, and those who served during the additional conflicts covered 
by this bill, were clearly at risk, they are currently not eligible to 
receive veteran's pensions. Nonetheless, in these cases, danger was 
faced, bravery was shown, and American lives were lost.
    Mr. Chairman, I believe that these bills more closely align the 
sacrifices made by these men and women with the compensation they 
deserve. As President Ronald Reagan, in his remarks to the nation on 
the conflict in Lebanon and Grenada stated, ``They gave their lives in 
defense of our National security every bit as much as any man who ever 
died fighting in a war.'' These sentiments apply to every man and woman 
who has stood in harm's way for the protection of our freedom. It is 
time that the U.S. Congress recognized this fact and extended pension 
benefits to those veterans who have exemplified the courage and bravery 
of service in our Armed Forces.
    Again, I thank you, Mr. Chairman, for affording me this courtesy, 
and I look forward to working with you and the Subcommittee to 
appropriately honor our veterans.

                                 <F-dash>
             Prepared Statement of the Hon. Vito Fossella,
        a Representative in Congress from the State of New York
    For years, I have joined with Staten Island veterans in a battle to 
establish a veteran's cemetery in the borough. The closest veteran's 
cemetery in the area is the Calverton National Cemetery on Long Island, 
but transportation demands have made it inaccessible for many aging 
veterans. It can be a grueling 3 to 5 hour roundtrip commute, making 
traveling there terribly difficult for most of the 28,000 veterans in 
my district.
    There are three primary obstacles preventing the establishment of a 
veteran's cemetery on Staten Island. First, a New York State law passed 
in the mid 1980's prohibits the state from funding a veteran's 
cemetery. Currently, Staten Island's local representatives are working 
on a legislative solution to fix this problem.
    Second, Staten Island lacks the necessary available acreage for a 
cemetery. Due to the land shortage, many local veterans have united 
around the idea of a mausoleum because it requires the least amount of 
land and is the most cost-effective way to achieve their long-sought 
goal.
    Third, the Department of Veterans Affairs requires a threshold of 
170,000 veterans within a 75 mile area to necessitate the establishment 
of a national veterans cemetery. Due to the Calverton National Cemetery 
on Long Island, Staten Island falls within a 75 mile radius and 
therefore is ineligible. For an aging, often disabled veteran 
population, the 3 to 5 hour commute to Long Island is unreasonable, and 
simply does not properly serve the veteran population, nor their 
families, on Staten Island. In addition to the 75 mile rule, the VA 
generally requires at least 175 acres to be available for a national 
cemetery. Currently, the existing land on Staten Island that has been 
offered by Mount Loretto is only 50 acres. But as I mentioned earlier, 
many local veterans have come to agree to the idea of a mausoleum 
instead of an actual cemetery.
    I believe that the threshold requirements used by the VA are a 
blunt instrument when applied to determining cemetery eligibility. To 
refine the process I authored HR 2346, a bill which would improve the 
process by adding additional variables for the VA to consider when 
citing a national cemetery.
    HR 2346 will direct the Secretary of Veterans Affairs to establish 
a process for determining whether a geographic area is sufficiently 
served by the veteran's cemeteries located there. The process will take 
into account the following variables for each geographic area: (1) 
total number of veterans; (2) average distance a resident must travel 
to reach the nearest national cemetery; (3) population density; (4) 
average amount of time it takes a resident to travel to the nearest 
national cemetery; (5) availability of public transportation for 
purposes of traveling to national cemeteries; and (6) average amount of 
fees charged to an individual traveling on the major roads leading to 
the national cemeteries
    Finally, In the case of a geographic area in which sufficient land 
is not available for the establishment of a cemetery, the Secretary 
shall consider alternatives such as establishing a mausoleum.
    It is worth noting that the VA is currently conducting a study 
regarding its requirements for establishing national veterans' 
cemeteries. A focus of the study is an examination of whether current 
thresholds are feasible and not overly simplistic in ensuring veteran 
access. VA knows there is a problem, and I hope my legislation can help 
fix it.
    In closing, Staten Island has one of the highest veterans 
populations in the state yet it remains unserved by a veterans 
cemetery. It is my hope that if adopted, my legislation would provide 
for a place of remembrance for so many of my constituents who deserve 
such a site closer to home.

                                 <F-dash>
   Prepared Statement of Carl Blake, National Legislative Director, 
                     Paralyzed Veterans of America
    Mr. Chairman and Members of the Subcommittee, on behalf of 
Paralyzed Veterans of America (PVA) I would like to thank you for the 
opportunity to testify today on H.R. 674; H.R. 1273; H.R. 1900; H.R. 
1901; H.R. 2346; H.R. 2696, the ``Veterans Dignified Burial Assistance 
Act of 2007;'' and H.R. 2697. PVA appreciates the efforts of the 
Subcommittee to address these issues that will benefit today's veterans 
and the veterans of tomorrow.

                                H.R. 674

    PVA supports H.R. 674, a bill that will repeal the provision of law 
requiring termination of the Advisory Committee on Minority Veterans as 
of December 31, 2009. This Committee was established by Public Law 103-
446 on November 2, 1994. The Committee has provided advice to the 
Secretary and to Congress on the VA's administration of benefits, 
healthcare, and other services to minority veterans since that time. 
They have met with veterans' service organizations and conducted 
townhall meetings to provide information and address the concerns of 
minority veterans. PVA believes that it is a beneficial working group 
and that it should be retained.

                               H.R. 1273

    H.R. 1273 will amend Title 38, United States Code, to direct the 
Secretary of Veterans Affairs to restore plot allowance eligibility for 
veterans of any war, and restore the headstone or marker allowance for 
eligible veterans. Previously, Congress passed legislation to help pay 
for the burial plot and the headstone for a veterans buried in a non-
government cemetery. This was intended to take some of the burial 
workload off of the National Cemetery Administration and allow a 
veteran to be buried in a family plot with other family members or in 
their particular religious burial site.
    In 1981, Congress eliminated the burial allowance for veterans with 
non-service connected disabilities. In 1990, Congress passed additional 
legislation eliminating the grave marker allowance. PVA supports this 
legislation that will restore both benefits to eligible veterans.

                               H.R. 1900

    H.R. 1900 will extend eligibility for pension benefits from the VA 
to veterans who received an expeditionary medal during a period of 
military service other than a period of war. Expeditionary medals were 
awarded to the servicemember who participated in, or was in direct 
support of, one of the many operations of the U.S. military. Operations 
such as the invasion of Grenada in 1983 or the invasion of Panama in 
1989 and many other special operations were periods of high tension 
within our military and involved performance of duties that sometimes 
resulted in serious injury or loss of life. These operations were not a 
declared period of war or the result of a presidential proclamation. 
PVA supports the extension of benefits as defined in H.R. 1900.
    However, we would like to see these pension benefits extended to 
all active military that served during those periods, not just those 
individuals who served in the specific theater. The expeditionary medal 
was awarded to participants of a military operation, but all military 
personnel may have been called upon to serve during these critical 
periods. We feel that all members of the military serving during one of 
those periods should receive this pension if they meet the other 
qualifications of this benefit.

                               H.R. 1901

    PVA supports H.R. 1901 that will extend eligibility for pension 
benefits for veterans that served in the military during specified 
periods of military engagement. PVA believes that the restriction for 
eligibility in H.R. 1901 defined by the phrase ``service performed in'' 
should be removed from the legislation so that all servicemembers that 
served during that time period would be included. As in H.R. 1900, any 
active military personnel may have been called upon to serve in the 
Nation's combat effort. We believe that anyone that served during that 
period should qualify.

                               H.R. 2346

    PVA supports H.R. 2346. This legislation directs the Secretary to 
establish a process to determine whether or not a geographic area is 
sufficiently served by a national cemetery. As the VA plans the 
expansion of the cemetery system they must ensure that areas that may 
have been overlooked in that past, or have seen a substantial increase 
in the population, will be served by a VA cemetery. This projection of 
future need can also provide helpful information to the states as they 
decide whether or not to participate in the VA's cemetery program.

  H.R. 2696, the ``Veterans Dignified Burial Assistance Act of 2007''

    PVA supports H.R. 2696, the ``Veterans Dignified Burial Assistance 
Act of 2007.'' This bill contains three important components. First, 
the bill increases the plot or interment allowance from $300 to $400. 
This will be a welcome benefit for the family Members of deceased 
veterans. The amount was last increased to $300 with the passage of 
Public Law 107-103 enacted in 2001.
    Secondly, PVA approves of the provision to repeal the time limit 
that states have to file for reimbursement for interment costs. This 
provision seems to serve no other purpose than to potentially save the 
VA money. Last, PVA supports the provision for grants for operation and 
maintenance of state veterans' cemeteries. This program will enhance 
the ability of states to provide veterans a local burial site in areas 
where a national cemetery may be many hours away. It will also provide 
for more burial capacity to the national cemetery system which has 
closed cemeteries for new burials in some locations.

                               H.R. 2697

    PVA supports H.R. 2697. This legislation will compliment 
legislation enacted during the 109<SUP>th</SUP> Congress. At that time, 
the Specially Adapted Housing Grant was made available to 
servicemembers that were severely injured and still in the military so 
that they might begin taking steps to modify their homes even before 
being discharged. This legislation will allow servicemembers awaiting 
discharge to be eligible for mortgage life insurance. This provision is 
perfectly reasonable as these men and women will be eligible for the 
benefit once they are a veteran anyway.
    Mr. Chairman and Members of the Subcommittee, PVA would once again 
like to thank you for the opportunity to provide our views on this 
important legislation. We look forward to working with you to continue 
to improve the benefits and services available to veterans.
    Thank you again. I would be happy to answer any questions that you 
might have.

                                 <F-dash>
   Prepared Statement of Eric A. Hilleman, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Mr. Chairman and Members of this Committee:
    Thank you for allowing the Veterans of Foreign Wars of the U.S. 
(VFW) to present our views on the legislation pending before this 
Subcommittee.
H.R 674: This bill would repeal the scheduled sunset date of December 
        31, 2009 for the Advisory Committee on Minority Veterans.
    We support this legislation. The Advisory Committee on Minority 
Veterans conducts site visits and meetings with VA officials, 
formulating opinions and recommendations, which serve minority 
veterans. Their input helps to improve access to care and further 
enhances VA's service provided to minority veterans. The VFW strongly 
supports its reauthorization.
H.R. 1273, Restoration of Plot Allowance Eligibility for Veterans
    We support S. 1273. This bill would make the $300 plot allowance 
available to service-connected disabled veterans or period-of-war 
veterans. It also grants the authority to the Secretary of Veterans 
Affairs to reimburse the deceased veteran's family for a non-government 
headstone or marker in lieu of furnishing a Government marker. Current 
law does not allow for the reimbursement of private markers in lieu of 
a Government-furnished marker.
    VFW has long supported legislation that will increase the burial 
plot allowance, as recent increases have not keep pace with the cost of 
final burial arrangements for those who honorably served our Nation. As 
co-author of the Independent Budget (IB), we have strongly advocated 
increasing the burial plot allowance. We would like to see the amount 
closer to the IB recommendation of $745, which would cover more of the 
costs associated with opening the grave.
H.R. 1900: Extends the eligibility for veterans' pension benefits to 
        veterans who receive an expeditionary medal for a period of 
        military service other than a period of war.
    The VFW fully supports the addition of this language to Chapter 15, 
U.S.C. Title 38. This bill would add to the definition of what entitles 
a veteran to pension for non-service-connected disability, death and/or 
for service. It would expand eligibility from veterans serving in a 
defined ``period of war'' to all veterans with an expeditionary service 
medal.
    This change in the law would keep pace with the changing nature of 
use of the military force and warfare in past conflicts and military 
actions such as our Nation's military involvement in Somalia from 1992 
to 1993, Bosnia from 1992 to 2002, and current operations in the Horn 
of Africa from 2002 to present. Under current law, these servicemembers 
and their families do not receive benefits that aid families during 
great periods of stress.
H.R. 1901: A bill to extend eligibility for pension benefits under laws 
        administered by the Secretary of Veterans Affairs to veterans 
        who served during certain periods in specified locations.
    The VFW supports this legislation to extend pension benefits to 
servicemembers that have risked life and limb in the Korean peninsula, 
Lebanon, and Granada. These groups of veterans are ineligible for 
pension benefits available to veterans that served during dates 
prescribed by Presidential proclamation or concurrent resolution of the 
Congress. We urge passage of this legislation and ask that the Congress 
consider other groups of veterans that have served at considerable risk 
to life and limb, such as service in Somalia in 1992 to 1993 and U.S. 
military operations in the Balkans from the nineties to present.
H.R. 2346 would direct the VA Secretary to establish a process for 
        determining whether a geographic area is sufficiently served by 
        the national cemeteries located in that geographic area.
    The work envisioned under H.R. 2346 is already being accomplished 
by the National Cemetery Administration (NCA) under P.L. 106-117 and 
P.L. 108-109. The NCA is required to report annually to Congress on the 
establishment of additional national cemeteries. A strategic plan is 
formulated, surveying areas determined to be appropriate for new 
national cemeteries. The site selection process takes into account 
population centers and the travel distance between area cemeteries, 
weighs the views of state and local veterans' organizations, and 
solicits others the Secretary considers knowledgeable in these matters. 
We believe that the current process sufficiently addresses the needs of 
veterans and their families; and as such, we view this legislation as 
duplicative of efforts already properly performed by the National 
Cemetery Administration.
H.R. 2696, Veterans' Dignified Burial Assistance Act of 2007
    VFW supports HR 2696. Current law allows a veteran who is not 
buried in a national cemetery, a plot allowance of up to $300. H.R. 
2696 increases the plot allowance to $400. VFW has long supported 
legislation that will provide an increase in the burial plot allowance, 
as recent increases have not kept pace with the cost of purchasing a 
final resting place for those who have honorably served our Nation. As 
co-author of the Independent Budget (IB), we have strongly advocated 
increasing the burial plot allowance. We believe moving the amount 
closer to the IB recommendation of $745 would better serve veterans and 
their families to settle the affairs of a departed loved one.
    This legislation also includes a provision to abolish grant-filing 
deadlines for Veterans State Cemeteries. The VFW has no position on 
this provision.
H.R. 2697: VFW supports HR 2697, legislation to expand eligibility for 
        veterans' mortgage life insurance (VMLI) to include Members of 
        the Armed Forces receiving specially adapted housing assistance 
        from VA.
    Current law allows those medically retired servicemembers to 
receive VA specially adapted housing benefits before leaving service 
but does not provide the same eligibility under the VA insurance 
program. This legislation closes that gap and allows those who may have 
difficulty getting commercial insurance the opportunity to receive 
reasonable coverage under VMLI.

                                 <F-dash>
Prepared Statement of Robert M. Fells, External Chief Operating Officer
  and General Counsel, International Cemetery, Cremation and Funeral 
                              Association
    Chairman Hall and Members of the Subcommittee:
    We appreciate your invitation to testify today regarding H.R. 1273 
and related bills to improve and enhance veterans' burial benefits. The 
International Cemetery, Cremation and Funeral Association represents 
over 7,200 Members including non-profit, for-profit, religious and 
municipal cemeteries, as well as funeral homes, crematories and related 
businesses primarily in the United States and in 24 foreign countries. 
Founded in 1887, the ICCFA promotes open competition, consumer choices, 
and prearrangement. I have served the Association since 1983 as general 
counsel, and also as External Chief Operating Officer since 2001.
    The ICCFA applauds the efforts of Congresswoman Shelley Berkley and 
appreciates her leadership in sponsoring H.R 1273, a bill to restore 
the veterans plot allowance eligibility and the headstone/marker 
allowance for use in private and religious cemeteries. These two cost-
effective burial benefits were popular for many years with veterans and 
their families who preferred interment in non-government cemeteries for 
personal, ethnic or religious reasons. In 1990, Congress suddenly 
curtailed the eligibility of wartime veterans to receive the plot 
allowance unless they were receiving VA compensation, pension benefits, 
or died of service-connected injuries. At the same time, Congress 
abolished the marker allowance that provided a cash reimbursement, 
based on the Government's wholesale costs of furnishing markers, to 
veterans and their families who preferred to purchase their own marker 
or headstone for placement in a private cemetery.
    When the VA's National Cemetery Administration was formally 
organized in 1973 as the result of Public Law 93-43, Congress 
implicitly acknowledged that national cemeteries did not operate in a 
vacuum, but complemented other forms of burial that used resources in 
private, religious, and municipal cemeteries. The ICCFA was 
instrumental in having included in that law a provision that authorized 
a plot allowance (then $150) to benefit the majority of veterans and 
their families who preferred interment in non-government cemeteries. 
This plot allowance was also viewed as a means to offset demands on 
national cemeteries and as a recognition of the personal, religious, 
and ethnic preferences of veterans. Subsequent legislation established 
additional forms of burial assistance, such as the marker allowance, to 
further avoid a forced reliance on national cemeteries.
    Since the November 1990 repeal of the marker allowance and the 
curtailment of the plot allowance, we believe that the VA eligibility 
requirements to receive forms of burial benefits has been inconsistent. 
The general availability of national cemetery interment to virtually 
all veterans and their immediate families contrasts sharply with the 
restricted benefits for veterans who wish to be buried in private 
cemeteries. In that sense, Congress has legislated against wartime 
veterans by cutting burial benefits to this group. The ICCFA has 
estimated that as many as 70 percent of the veterans previously 
entitled to burial benefits in non-government cemeteries were made 
ineligible through Congressional actions in 1990 and earlier.
    For example, in October, 1981, P.L. 97-35 was enacted that 
disqualified wartime veterans from receiving the non-service connected 
basic burial allowance (then $300) in the absence of additional 
criteria. In November 1990, as mentioned above, Congress again 
discriminated against wartime veterans by restricting the plot 
allowance and eliminating the marker allowance. These modest, one-time 
payments not only reflected the wishes of veterans but would also 
result in long-term cost savings when compared to expense of 
maintaining graves in the national cemeteries in perpetuity. However, 
we feel that these factors were not given sufficient regard at the 
time.
    Hence, the importance of H.R 1273, a bill that does not create new 
burial benefits, but restores the veterans plot allowance eligibility 
and the headstone/marker allowance for use in private and religious 
cemeteries, benefits which never should have been eliminated.
    In conclusion, we appreciate your allowing us to testify today and 
we urge you to act favorably on H.R. 1273. I would be happy to answer 
any questions you may have. Thank you.

                                 <F-dash>
Prepared Statement of Raymond C. Kelley, Legislative Director, American 
                           Veterans (AMVETS)
    Mr. Chairman and Members of the Subcommittee:
    Thank you for providing AMVETS (American Veterans) the opportunity 
to testify regarding pending legislation on minority veterans, memorial 
affairs, and disability pension benefits.
    Over the past twelve years, the Advisory Committee on Minority 
Veterans with their unique insight has provided timely, accurate 
information and recommendations on potential barriers, which are 
unintentionally in place, often causing minority veterans a lower 
quality of care. Although, these barriers are not limited to 
minorities, the advisory committee's perspective provides an ability to 
identify the root of the problem and submit recommendations which often 
develop into legislative proposals and inevitably helps all veterans. 
AMVETS wholly supports H.R. 674's repeal of its sunset provision, 
extending the Advisory Committee on Minority Veterans.
    Mr. Chairman, it should be at the root of our Nation's conscience 
to honor those servicemembers who are willing to stand in harm's way at 
our Government's request, and the highest respect we can pay is to 
honor the lives of our veterans after they have passed away. H.R. 1273, 
H.R. 2696, and H.R. 2346 promote this honor as well as offset the cost 
incurred by the families when a loved one passes on. AMVETS supports 
H.R. 1273 in restoring veterans' plot allowance eligibility and 
headstone or marker allowance, but would encourage an amendment to 
include all eligible veterans, not just veterans who have served during 
wartime. AMVETS also supports the increase in burial assistance from 
$300 to $400; however, Mr. Chairman, the amount should be increased to 
$745. This increased amount would make current payments proportionally 
equal to the amount paid when this benefit was initially provided in 
1973. AMVETS wholly supports H.R. 2346 as it assists VA in meeting its 
goal of providing 85 percent of veterans with burial options within 75 
miles of their residence.
    AMVETS supports H.R. 1900 and H.R. 1901 as they update and clarify 
veterans who are eligible for pension benefits. In the same light, Mr. 
Chairman, AMVETS supports H.R. 2697; however, due to Title 38's 
definition of ``veteran,'' if H.R. 1315 is not passed, administrative 
amendments may need to be enacted to include ``members of the Armed 
Forces'' throughout Chapter 21, Title 38, to clarify servicemembers' 
eligibility for adaptive housing assistance which this resolution will 
insure.
    Mr. Chairman, this concludes my testimony.

                                 <F-dash>
  Prepared Statement of Alec S. Petkoff, Assistant Director, Veterans 
         Affairs and Rehabilitation Commission, American Legion
    Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity to present The American Legion's 
views on the issues being considered by the Subcommittee today. The 
American Legion commends the Subcommittee for holding a hearing to 
discuss these important topics.
H.R. 674
To amend title 38, United States Code, to repeal the provision of law 
        requiring termination of the Advisory Committee on Minority 
        Veterans as of December 31, 2009.
    H.R. 674 seeks to repeal the provision of law requiring termination 
of the Advisory Committee on Minority Veterans (ACMV) by December 31, 
2009. The American Legion supports the repeal of the sunset provision 
for the ACMV.
    ACMV was created to advise the Secretary of Veterans Affairs on the 
administration of The Department of Veterans Affairs (VA) benefits and 
services for minority veterans. The Advisory Committee is responsible 
for reviewing reports and studies on compensation, health care, 
rehabilitation, outreach and other VA services. It also assesses the 
needs of minority veterans and makes recommendations to improve 
programs established to meet the identified needs. As VA continues to 
enhance and create new programs to better serve the needs of minority 
veterans, the need for the Advisory Committee will always remain 
relevant.
    Given the growing diversity of the veteran population, to include 
an increasing number of women veterans, ACMV has a profound role in 
ensuring that existing and future VA programs are sensitive to the 
needs of this diverse population and ensuring that VA is effective in 
its outreach efforts to make minority veterans aware of the benefits 
and services available to them.
H.R. 1273
To amend title 38, United States Code, to direct the Secretary of 
        Veterans Affairs to restore plot allowance eligibility for 
        veterans of any war and to restore the headstone or marker 
        allowance for eligible persons.
    H.R. 1273 seeks to restore plot allowance eligibility and to 
restore the headstone or marker allowance to reflect the criteria used 
before The Omnibus Budget Reconciliation Act 1990 (OBRA). OBRA limited 
the payment of a burial plot allowance only to veterans who are 
indigent or who are in receipt of VA disability compensation or 
pension. It also eliminated the headstone or marker allowance.
    The American Legion fully supports this legislation that would 
restore these benefits. The American Legion saw these cuts in benefits 
as a shameless cost saving measure that never should have happened.
H.R. 1900
To amend title 38, United States Code, to extend eligibility for 
        pension benefits under laws administered by the Secretary of 
        Veterans Affairs to veterans who received an expeditionary 
        medal during a period of military service other than a period 
        of war.
    This bill, if enacted, would amend title 38, United States Code, to 
extend eligibility for pension benefits to veterans who received an 
expeditionary medal during a period of military service other than a 
period of war.
    The American Legion does not have a position regarding this bill.
H.R. 1901
To amend title 38, United States Code, to extend eligibility for 
        pension benefits under laws administered by the Secretary of 
        Veterans Affairs to veterans who served during certain periods 
        of time in specified locations.
    This bill, if enacted, would amend title 38, United States Code, to 
extend eligibility for pension benefits to veterans who served during 
certain periods of time in specified locations. Specifically, this bill 
would extend eligibility for non service-connected pension to those 
with active duty military, naval or air service in the Republic of 
Korea during the period of February 1, 1955 to August 4, 1964; in the 
Republic of Korea during the period of May 8, 1975 to August 1, 1990; 
in Lebanon or Grenada during the period of August 24, 1982 to July 31, 
1984; in Panama during the period of December 20, 1989 to January 31, 
1990.
    The American Legion supports the intent of this legislation but 
strongly recommends extending pension eligibility to those who served 
during the aforementioned periods regardless of the location of such 
service. The wartime service periods currently recognized do not (with 
the exception of Vietnam for the period of February 28, 1961 to August 
4, 1964) have such service location requirements. The inclusion of such 
requirements is overly restrictive and contrary to the spirit and 
intent of the non service-connected pension benefit.
H.R. 2346
To direct the Secretary of Veterans Affairs to establish a process for 
        determining whether a geographic area is sufficiently served by 
        the national cemeteries located in that geographic area.
    The American Legion fully supports the intent of this legislation. 
The National Cemetery Administration (NCA) has a long tradition of 
providing burial and memorial services to veterans. The American Legion 
supported P.L. 108-109, the National Cemetery Expansion Act of 2003, 
authorizing The Department of Veterans' Affairs (VA) to establish new 
national cemeteries to serve veterans in the areas of: Bakersfield, 
California; Birmingham, Alabama; Jacksonville, Florida; Sarasota 
County, Florida; southeastern Pennsylvania; and Columbia-Greenville, 
South Carolina. All six areas have veteran populations exceeding 
170,000, which is the threshold VA has established for new national 
cemeteries.
    The American Legion supports the establishment of additional 
national and state veterans cemeteries and columbaria wherever a need 
for them is apparent and have petitioned Congress to provide required 
operations and construction funding to ensure VA burial in a national 
or state veterans cemetery is a realistic option for veterans and their 
eligible dependents.
    The American Legion does have some concern about section 1(b) 
Consideration of Alternatives. While we fully support innovative ways 
to provide burial space in areas where space is limited (islands, i.e. 
Puerto Rico) or where the environment is prohibitive to the traditional 
constructive designs for national cemeteries (deserts, i.e. southwest 
U.S.) we are concerned about the introduction of VA mausoleums. Our 
concern is that the veterans of an area being considered for a 
mausoleum be consulted first as to the fittingness of a mausoleum as a 
final resting place. A mausoleum would have to conform to the high 
standard of being a national shrine and of being a place that veterans 
want to be laid to rest in.
H.R. 2696
``Veterans Dignified Burial Assistance Act of 2007''
    The American Legion supports the intent of section 2(a) to increase 
the burial plot allowance. Under the National Cemeteries Act (P.L. 95-
73) 13 percent of the cost of a burial plot was covered. The current 
allowance of $300 covers on average 3 percent of costs. The American 
Legion suggests it be raised to $670 to bring the amount closer to the 
original 13 percent and that that amount be adjusted yearly for 
inflation by tying the increased allowances to the Consumer Price 
Index.
    The American Legion also supports the intent of section 2(b) that 
would repeal the time limitation for filing for reimbursement.
    The American Legion does not have a position on grants related to 
operating and maintaining a state veterans cemetery.
H.R. 2697
Veterans Mortgage Life Insurance Eligibility Expansion
    H.R. 2697 addresses the expansion of Veterans Mortgage Life 
Insurance (VMLI), a VA program offering $90,000 of mortgage life 
insurance to severely disabled veterans who are awarded grants by the 
VA for specially adapted housing, to include Members of the military 
service departments who meet similar disability requirements, yet who 
are still in an active duty status either due to a lengthy separation 
process for various reasons, or who are retained in such status due to 
their occupational specialties being needed by their service department 
or due to other manpower requirements.
    The American Legion supports this proposal as these individuals 
obviously meet the same criteria as is used for those presently insured 
under the VMLI program. The only difference here is that this group is 
not yet separated from service, which is a requirement of the current 
statute. We believe the justification here is, in essence, the same and 
that these individuals should also have the option of being insured 
under the VMLI program.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
testimony. I appreciate the opportunity to present The American 
Legion's views on these important issues.

                                 <F-dash>
   Prepared Statement of Bradley G. Mayes, Director, Compensation and
 Pension Service, Veterans Benefits Administration, U.S. Department of 
                            Veterans Affairs
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify today on a number of bills of great interest to 
veterans. We will address today only those bills for which the 
administration was able to coordinate its views in the time provided. 
We will address the remaining bills in a subsequent letter to the 
Subcommittee.

                                H.R. 674

    H.R. 674 would repeal the current statutory requirement terminating 
the Advisory Committee on Minority Veterans (ACMV) as of December 31, 
2009. The Department of Veterans Affairs (VA) supports H.R. 674.
    The ACMV is composed of veterans of all ranks and services 
appointed by the Secretary of Veterans Affairs. Members represent the 
five minority groups the Center for Minority Veterans is mandated to 
oversee. It advises the Secretary and Congress on VA's administration 
of benefits and provision of healthcareto minority veterans, assesses 
the needs of minority veterans, reviews VA programs and activities 
designed to meet those needs, and develops recommendations to address 
unmet needs. Among other things, the ACMV meets with senior officials 
to discuss services and programs available for minority veterans and 
receives briefings from all of the administrations and other staff 
offices.
    The ACMV's reports and recommendations have highlighted many of the 
challenges confronting minority veterans, such as access to care, 
disparities in healthcarefor diseases that disproportionately affect 
minorities, homelessness, unemployment, lack of understanding of claims 
process, existence of limited medical research, and statistical data 
related to minority veterans. VA has accepted many of the ACMV's 
recommendations and is moving forward to implement them. For example, 
VA is continually improving access to care by increasing the number of 
ambulatory care and outpatient clinics. In 1995, there were 102 such 
clinics; currently, there are 872. VA is also addressing homelessness 
by partnering with community stakeholders and expanding VA's Grant and 
Per Diem Program. In short, the ACMV plays a vital role in helping VA 
assess and respond to the needs of minority veterans, and its efforts 
complement VA's related outreach efforts.
    The cost associated with enactment of H.R. 674 would be 
insignificant, approximately $80,000 per year.

                               H.R. 2346

    H.R. 2346 would direct the Secretary of Veterans Affairs to develop 
a process for determining whether a geographic area is sufficiently 
served by the national cemeteries located in that geographic area. H.R. 
2346 would require that the process take into account the: (1) number 
of veterans living in the geographic area; (2) average distance a 
resident of the geographic area must travel to reach the nearest 
national cemetery; (3) population density of the geographic area; (4) 
average amount of time it takes a resident of the geographic area to 
travel to the nearest national cemetery; (5) availability of public 
transportation for purposes of traveling to national cemeteries located 
in the geographic area; and (6) average amount of any fees charged to 
an individual traveling on the major roads leading to the national 
cemeteries located in the geographic area. If land sufficient to 
establish a national cemetery is not available to VA in a geographic 
area, VA would be required to consider alternatives to establishing a 
cemetery, including establishing a mausoleum.
    VA currently seeks to ensure that a national cemetery is located 
within a 75-mile radius of a deceased veteran's residence. One of the 
criteria for selecting the site of a new national cemetery is a veteran 
population of 170,000 that is not served by a national cemetery or 
state veterans' cemetery. The six new national cemeteries authorized by 
the National Cemetery Expansion Act of 2003, as well as the six 
cemeteries authorized by the Veterans Millennium healthcareand Benefits 
Act, which was enacted in 1999, satisfy these criteria. VA is currently 
evaluating VA's memorial benefits program. We expect to complete this 
program evaluation by April 2008. We believe it would be prudent to 
consider the results of this program evaluation before developing the 
new process H.R. 2346 would require. Therefore, we oppose H.R. 2346 
because the measures outlined in the bill are premature at this time.
    Because we cannot know the full extent of the process that H.R. 
2346 would mandate until the process is developed, we are unable to 
estimate the costs that would result from enactment of the bill.

                               H.R. 2696

    Section 2(a) of H.R. 2696, the ``Veterans' Dignified Burial 
Assistance Act of 2007,'' would increase from $300 to $400 the amount 
of reimbursement allowed for the costs of a burial plot or interment 
for a veteran who is eligible for burial in a VA national cemetery but 
is buried in a state or private cemetery. This plot or interment 
allowance was last increased from $150 to $300 by Public Law 107-103 in 
2001. section 2(b) of the bill would nullify the 2-year time limitation 
in 38 C.F.R. Sec. 3.1604(d)(2) for states to file claims for the plot 
or interment allowance as it applied to claims in connection with 
interment of a deceased veteran's unclaimed remains. Section 2(b) would 
be retroactively effective as of October 1, 2006.
    As explained above, VA is currently evaluating its memorial 
benefits program. That evaluation will assess the appropriateness of 
VA's current burial benefits based on the data obtained and beneficiary 
needs. We believe that it would be premature to take a position on 
section 2 of the bill before we have completed our memorial benefits 
program evaluation. Accordingly, we defer taking a position on these 
provisions until we have had an opportunity to review the results of 
this program evaluation.
    Enactment of section 2(a) would result in costs of $7.2 million for 
the first year and $77 million over 10 years. Enactment of section 2(b) 
would result in insignificant costs.
    Section 2(c) of the bill would authorize VA to provide up to $5 
million annually in grants to states or tribal organizations for 
operating and maintaining state veterans' cemeteries or veterans' 
cemeteries on trust land owned by, or held in trust for, tribal 
organizations. It would also require VA, not later than 180 days after 
enactment, to prescribe regulations to carry out the amendments. VA 
does not support using the State Cemetery Grant Program to operate and 
maintain state veterans' cemeteries or tribal organization cemeteries. 
(For convenience, we refer below only to grants to states and state 
veterans' cemeteries, but our rationale applies also to grants to 
tribal organizations and their veterans' cemeteries.)
    The State Cemetery Grant Program is intended to complement the 
national cemetery system in providing a dignified burial place 
reasonably close to where veterans live. Through the grant program, 
states establish, expand, or improve cemeteries in areas where there 
are no plans to create an open national cemetery. Under current law, VA 
may fund 100 percent of certain costs related to the establishment, 
expansion, or improvement of a state veterans' cemetery.
    Historically, states have been solely responsible for all 
operational and maintenance activities at state veterans' cemeteries. 
Federal grants to operate and maintain state veterans' cemeteries may 
create ambiguities in the states' responsibility for the operation and 
maintenance of state cemeteries. Also, because operating costs are 
recurring, it is unclear upon what basis the grants would be awarded or 
how the grants would be distributed. Funds obligated for this new 
purpose could otherwise be used for state cemetery grants in the 
existing program or to help fund operation and maintenance costs for VA 
national cemeteries. Authorizing Federal grants to fund operation and 
maintenance could discourage states that have already received grants 
from fulfilling their commitments to operate and maintain their 
cemeteries, or could encourage future grant applicants to inadequately 
plan for funding the operation and maintenance of their cemeteries 
because of the availability of Federal grants to cover those costs.
    Enactment of section 2(c) of this bill would result in costs of $5 
million for the first year and $50 million over 10 years.

                               H.R. 2697

    Veterans' Mortgage Life Insurance (VMLI) is available to severely 
disabled veterans who receive a specially adapted housing grant. 
Congress recently extended eligibility for specially adapted housing 
assistance to Members of the Armed Forces serving on active duty who 
have certain service-connected disabilities. H.R. 2697 would extend the 
protection offered by VMLI to Members of the Armed Forces receiving 
specially adapted housing assistance from VA. VA supports this bill.
    VA estimates that 30 servicemembers would be eligible for VMLI if 
H.R. 2697 were enacted. If all 30 servicemembers applied for VMLI, VA 
estimates that enactment of H.R. 2697 would result in total additional 
benefit costs of approximately $28,000 for the first year and $1.7 
million over 10 years. Additional administrative costs would be 
minimal.

                                 <F-dash>
 Statement of Brian Lawrence, Assistant National Legislative Director, 
                       Disabled American Veterans
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to submit for the record, the views of the Disabled 
American Veterans (DAV) on the various bills under consideration today. 
In accordance with its congressional charter, the DAV legislative 
mission is focused on benefits and services provided to veterans on 
account of their service-connected disabilities. We are therefore 
pleased to support the bills insofar as they fall within that scope. 
The DAV has no mandate from its Membership on issues addressed within 
H.R. 674, H.R. 1273, H.R. 1900, H.R. 1901, and H.R. 2346, but we have 
no objection to their favorable consideration.

                               H.R. 2696

    The Veterans' Dignified Burial Assistance Act of 2007 would 
increase plot or interment allowance from $300 to $400, for veterans 
interred in cemeteries other than national cemeteries. Overall, H.R. 
2696 is beneficial as it helps to ensure, as its title implies, that 
veterans have access to a dignified burial that provides the level of 
honor they deserve. However, a concern arises regarding the provision 
that allows VA to make grants to States for the operation and 
maintenance of State veterans' cemeteries. While this provision appears 
favorable because it would make more burial space available for 
veterans, the DAV wants to ensure that it would not have the unintended 
consequence of creating competition between State and National cemetery 
programs for funding. Should such certainty be made, we would welcome 
the provision. Last, along with the proposed increase for the burial 
plot allowance, the DAV would encourage the Committee to consider 
legislation to provide for automatic annual adjustments to the burial 
plot allowance indexed to the rise in the cost of living. During the 
most recent DAV National Convention, our Members voted to again adopt a 
long standing resolution calling for an increase for burial allowance, 
which seems worthy of mention considering the objective of this 
commendable legislation. This bill is consistent with the 
recommendation of the The Independent Budget (IB) on this issue. The IB 
is a budget and policy document that sets forth the collective views of 
the DAV, AMVETS, the Paralyzed Veterans of America (PVA), and the 
Veterans of Foreign Wars of the United States (VFW).

                               H.R. 2697

    This legislation would expand eligibility for veterans' mortgage 
life insurance to include Members of the Armed Forces receiving 
specially adapted housing assistance from the VA. Because this bill 
would provide additional coverage for severely disabled veterans who 
have sacrificed so much on behalf of the security of their fellow 
citizens, the DAV supports this commendable legislation.
    We appreciate the Committee's interest in these issues, and we 
appreciate the opportunity to present the DAV's views, which we hope 
will be helpful.

                                 <F-dash>
 Statement of the Hon. Luis V. Gutierrez, a Representative in Congress 
                       from the State of Illinois
    Good afternoon, Chairman Hall, Ranking Member Lamborn and members 
of the Subcommittee. Thank you for inviting me to be here today to 
discuss my bill, H.R. 674, legislation to make the Advisory Committee 
on Minority Veterans permanent. I have sponsored this legislation along 
Congresswoman Corrine Brown, who serves on this Committee. As most of 
you know, current law mandates the termination of the Advisory 
Committee on Minority Veterans (ACMV) on December 31, 2009. This bill 
would simply repeal the provision of law that sunsets this important 
Committee so that its critical work on behalf of minority veterans can 
continue.
    The Advisory Committee on Minority Veterans operates in conjunction 
with the VA Center for Minority Veterans. This Committee consists of 
Members appointed by the Secretary of Veterans Affairs and includes 
minority veterans, representatives of minority veterans groups and 
individuals who are recognized authorities in fields pertinent to the 
needs of minority veterans.
    The Advisory Committee on Minority Veterans helps the VA Center for 
Minority Veterans by advising the Secretary on the adoption and 
implementation of policies and programs affecting minority veterans, 
and by making recommendations to the VA for the establishment or 
improvement of programs in the department for which minority veterans 
are eligible.
    The Committee has consistently provided the VA and Congress with 
balanced, forward-looking recommendations, many of which go far beyond 
the unique needs of minority veterans. In 2002, the Committee met in my 
hometown of Chicago and warned that in the Chicago regional office ``it 
was mentioned that it was much easier to deny benefits than to grant 
benefits because of stringent requirements of VBA and Court of Appeal 
for Veterans Claims.''
    The Chicago Sun-Times later exposed that Illinois veterans ranked 
50th in disability benefit compensation. That information sparked a 
campaign by the Illinois Congressional Delegation to rectify the 
situation. Since then, the VA Inspector General has issued his report 
and recommendations and the Secretary has pledged additional staff and 
resources to the Chicago regional office.
    The Committee will also be needed in the future since the unique 
concerns of minority veterans will become increasingly important for 
our Nation over the next decade.
    Currently, 17 percent of the troops serving in Iraq and Afghanistan 
are African-American, while 11 percent are Hispanic. The concerns of 
these veterans and others will not disappear on December 31, 2009, nor 
should the Committee that represents them. The Advisory Committee on 
Minority Veterans has helped our minority veterans from past wars with 
programs to address their concerns. We should not shortchange our newly 
returning soldiers by allowing this Committee's tenure to expire.
    Many specific issues of concern to minority veterans need to be 
addressed further. Minority veterans confront the debilitating effects 
of post-traumatic stress disorder (PTSD) and substance abuse in greater 
numbers. Minority veterans suffer from a higher incidence of 
homelessness. Access to healthcare for Native American veterans is also 
a common problem. In addition, access to adequate job training is a 
difficulty for many minority veterans, a high percentage of whom 
qualify as low-income, category A veterans.
    Unfortunately, discrimination and cultural insensitivity remain 
problematic for minority veterans at many VA facilities. The Advisory 
Committee on Minority Veterans still has a lot of work to do, and I 
urge my colleagues to support this legislation to make this important 
Committee permanent.

                                 <F-dash>

                                U.S. Department of Veterans Affairs
                                                    Washington, DC.
                                                       July 7, 2008

Hon. Bob Filner
Chairman
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

    I am pleased to provide the Committee with the views of the 
Department of Veterans Affairs (VA) on four bills: H.R. 156, H.R. 1273, 
H.R. 1900, and H.R. 1901, 110th Cong. We presented a summary of H.R. 
156 to the Subcommittee on Disability Assistance and Memorial Affairs 
during a hearing held on June 19, 2007, but did not present VA's views 
at that time. VA's statement to the Subcommittee for a hearing held on 
July 31, 2007, did not cover H.R. 1273, H.R. 1900, or H.R. 1901, which 
were on the agenda for that hearing. We are providing our views on 
these bills at this time. For the reasons explained below, we support 
enactment of H.R. 156, contingent on Congress identifying offsets, but 
do not support enactment of H.R. 1273, H.R. 1900, or H.R. 1901.
    H.R. 156

    H.R. 156 would provide dependency and indemnity compensation (DIC) 
to the survivors of certain totally disabled former prisoners of war 
(POWs) who died on or before September 30, 1999.
    VA supports enactment of H.R. 156, subject to Congress finding 
offsets for the increased costs. Currently, DIC is payable to the 
survivors of former POWs who were rated totally disabled for at least 1 
year immediately preceding death, but only if death occurred after 
September 30, 1999. The proposed amendment would remove the date-of-
death temporal restriction and would authorize payment of DIC to the 
survivors of former POWs who died on or before September 30, 1999, 
subject to the same eligibility conditions that apply to payment of DIC 
to the survivors of former POWs who die after that date. We see no 
basis for distinguishing survivors of former POWs who died after 
September 30, 1999, from survivors of former POWs who died on or before 
that date.
    We estimate that the benefit costs would be $21.0 million for the 
first year, $89.1 million over 5 years, and $137.4 million over 10 
years. There would be no significant administrative costs associated 
with enactment of the bill.

    H.R. 1273

    Section 1(a) of H.R. 1273 would expand eligibility for the $300 
plot allowance to any wartime veteran who is buried in a private 
cemetery.
    VA does not support enactment of section 1(a) of H.R. 1273. 
Currently, 38 U.S.C. Sec. 2303(b)(1) authorizes a plot allowance for 
any veteran who is eligible for burial in a national cemetery but is 
buried in a state veterans cemetery. Section 2303(b)(2) currently 
authorizes a plot allowance for any veteran who is eligible for burial 
in a national cemetery but is buried in a private cemetery and (1) was 
in receipt of compensation or pension at the time of death, (2) was 
either a wartime veteran or discharged from active service for a 
service-connected disability, and whose body was unclaimed, (3) was 
discharged from active service for a disability incurred or aggravated 
in line of duty, or (4) died in a VA facility, as described under 
section 2303(a)(2). Although section 1(a) of H.R. 1273 would extend 
eligibility of the plot allowance to wartime veterans buried in a 
private cemetery, the bill would also, seemingly inadvertently, remove 
eligibility for the plot allowance for peacetime veterans buried in a 
state cemetery who were not discharged from service due to a disability 
incurred in service.
    We do not support this provision of the bill because it would add 
approximately 400,000 claims each year to those currently received 
annually.
    Section 1(b) of H. R. 1273 would restore VA's authority to provide 
a reimbursement allowance for the cost of a headstone or marker 
furnished at private expense.
    VA does not support enactment of section 1(b) of H.R. 1273. Current 
law authorizes VA to provide a Government-furnished headstone or marker 
for the private cemetery grave of an eligible veteran who died on or 
after November 1, 1990, regardless of whether the grave has been marked 
at private expense. We have found that the Government's provision of a 
first or second headstone or marker is a benefit many families expect 
in order to recognize their loved one's service to the Nation, and it 
is consistent with the National Cemetery Administration's mission of 
honoring and memorializing our veterans. Current law also authorizes VA 
to provide, upon request, a medallion or similar device signifying 
veteran status in lieu of a Government-furnished headstone or marker 
for an eligible veteran's grave in a private cemetery. This authority 
permits VA to recognize and honor veterans who are buried in a private 
cemetery that does not allow placement of a Government-furnished 
headstone or marker.
    For veterans who died between October 18, 1979, and October 31, 
1990, VA is authorized to pay an allowance to families who purchased a 
private headstone or marker in lieu of obtaining a Government-furnished 
headstone or marker for a veteran's grave in a private cemetery. In 
1990, Congress terminated the allowance. Although the allowance helps 
offset the cost of acquiring a private headstone or marker, it does not 
serve to recognize a veteran's service, as would a Government-furnished 
marker or a medallion that can be affixed to a private headstone or 
marker. VA believes that the second-marker benefit and the new 
medallion option eliminate the need to offer a subsidy to assist with 
the purchase of a private headstone or marker that does not honor the 
veteran's service. Further, section 1(b) would provide for the 
reimbursement of the cost of privately furnished headstones or markers 
without any dollar limit, which would significantly increase mandatory 
spending.
    We estimate that the benefit costs associated with enactment of 
H.R. 1273 would be $96.2 million for Fiscal Year (FY) 2009, $466.3 
million for the 5-year period from FY 2009 to FY 2013, and $881 million 
for the 10-year period from FY 2009 to FY 2018. We estimate that the 
administrative costs would be $12.1 million for FY 2009, $64.9 million 
over 5 years, and $135.7 million over 10 years.

    H.R. 1900

    H.R. 1900 would extend eligibility for pension to veterans who 
received an expeditionary medal for a period of active military, naval, 
or air service other than a period of war and to their survivors.
    VA does not support enactment of H.R. 1900. Historically, pension 
has been provided only to veterans with wartime service and their 
survivors. This change would be inconsistent with the longstanding 
policy of distinguishing between peacetime and wartime service for 
pension purposes. Providing both peacetime and wartime veterans with 
identical pension benefits implies that there is no distinction between 
the types of service. We do not support this bill because it would 
contradict the intended purpose for the pension program.
    We do not have adequate data to accurately estimate the costs that 
would result from enactment of this bill.

    H.R. 1901

    H.R. 1901 would extend pension eligibility to peacetime veterans 
who performed active service in the Republic of Korea between February 
1, 1955, and August 4, 1964, or May 8, 1975, and August 1, 1990; in 
Lebanon or Grenada between August 24, 1982, and July 31, 1984; or in 
Panama between December 20, 1989, and January 31, 1990 (inclusive of 
each of the preceding dates).
    VA does not support enactment of H.R. 1901. Although the periods of 
service listed in this bill are known for having war-like conflicts, 
they have not been considered periods of war. This bill would therefore 
create inconsistency in benefit eligibility among peacetime veterans. 
It would also imply that the service of these veterans is more valuable 
than the service of other peacetime veterans.
    We estimate that the benefit costs associated with enactment of 
this bill would be $8.0 million for FY 2009, $42.0 million for the 5-
year period from FY 2009 to FY 2013, and $89.8 million for the 10-year 
period from FY 2009 to FY 2018.
    We are sending a similar report to Ranking Republican Member Steve 
Buyer.
    The Office of Management and Budget has advised that there is no 
objection to the submission of this report from the standpoint of the 
Administration's program.

            Sincerely yours,

                                               James B. Peake, M.D.
                                                          Secretary

                                 <all>

</pre></body></html>
